SSA Office of the inspector General



Message from the Inspector General
I am pleased to present the Social Security Administration’s (SSA) Office
of the Inspector General Semiannual Report to Congress for the period of
October 1, 2001 through March 31, 2002. This report meets the requirements
of the Inspector General Act of 1978, as amended, and includes information
that is mandated by Congress. This report outlines our mission, significant
activities, and provides our assessment of SSA’s top management issues for
Fiscal Year 2002. It also includes highlights of our accomplishments for each of
these challenges, including several major cases and other organizational
achievements.

In the aftermath of the September 11, 2001 terrorist attacks, I cannot
overstate the importance of protecting the integrity of the Social Security
number (SSN). Because the SSN has become such a vital aspect of American           Inspector General
                                                                                   James G. Huse, Jr.
life, we must face challenges of homeland security and the realization that the
integrity of the SSN is a key element, not only in protecting against fraud, but
also in protecting lives. Twice during this reporting period, I testified before
Congress concerning SSN misuse and I continue to support efforts to further
protect the SSN. Our auditors and investigators are working closely with SSA
on implementing our prior recommendations to improve the enumeration
process and to protect the integrity of the SSN. We remain dedicated to our
commitment to protecting the American people by limiting the spread of
identity fraud through SSN misuse.

The accomplishments that are highlighted in this report result from the
dedicated efforts of each member of our staff. Due to this commitment, we
continue to make significant progress in each and every area of our
organization. Our investigators reported over $202.8 million in investigative
accomplishments with over $26.3 million in SSA recoveries, restitution, fines,
settlements, and judgments and $136,014,124 in SSA savings. Our attorneys
reported $392,385 in penalties and assessments imposed for persons making
false statements. In the area of misleading advertising, our attorneys also
settled 5 cases that resulted in the imposition of over $115,000 in penalties.
And finally, our auditors issued 35 reports with recommendations that
$105,995 in Federal funds could be put to better use and identified over
$9.2 million in questioned costs.

As we continue to work with SSA to achieve measurable results, we try to
anticipate future challenges for ongoing and planned work to achieve our
desired goals.

                                Sincerely,




                                James G. Huse, Jr.

                                Inspector General
      ii                      SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02




Message from the Inspector General
SSA OFFICE OF THE INSPECTOR GENERAL



Table of Contents
Message from the Inspector General ................................................................................. i


Introduction to Our Organization ..................................................................................... 1


Significant Activities......................................................................................................... 3

       Homeland Security Efforts.......................................................................................... 3

       Fugitive Felon Program .............................................................................................. 4

       Cooperative Disability Investigations Program............................................................... 6

       Battle Against False Statements and Senior Citizen Scams ............................................. 8

       Partnerships with U.S. Attorneys............................................................................... 10

       Investigative Accomplishments ................................................................................. 10


Significant Management Issues Facing SSA.................................................................... 12

       Issue 1: Fraud Risk ............................................................................................... 12

       Issue 2: Improper Payments................................................................................... 16

       Issue 3: Systems Security and Controls ................................................................... 18

       Issue 4: Service Delivery ....................................................................................... 20

       Issue 5: Human Capital.......................................................................................... 22

       Issue 6: Performance, Management, and Data Reliability ............................................ 23

       Issue 7: Management of the Disability Process .......................................................... 26

       Issue 8: Integrity of the Earnings Reporting Process .................................................. 28

       Issue 9: SSN Misuse and Privacy Concerns (Identity Theft) ......................................... 30

       Issue 10: Integrity of the Representative Payee Process .............................................. 34


Appendices..................................................................................................................... 37

     Appendix A ............................................................................................................ 39

     Appendix B ............................................................................................................ 41

     Appendix C ............................................................................................................ 45

     Appendix D ............................................................................................................ 47

     Appendix E ............................................................................................................ 49

     Appendix F ............................................................................................................ 51

     Appendix G ............................................................................................................ 55

SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02
SSA OFFICE OF THE INSPECTOR GENERAL                                                     1



Introduction to Our Organization
The Office of the Inspector General (OIG) is comprised of four components:
Office of the Counsel to the Inspector General (OCIG), Office of the Audit (OA),
Office of Investigations (OI), and Office of Executive Operations (OEO).




Office of the Counsel to the Inspector General
OCIG reviews and evaluates legislation, regulations, and standard operating
procedures in terms of their impact on program economy and efficiency or
their prevention of fraud and abuse. It also provides legal advice and counsel
to the Inspector General on various matters, including: (1) statutes, regula-
tions, legislation, and policy directives governing the administration of Social
Security Administration’s (SSA) programs; (2) investigative procedures and
techniques; and (3) legal implications and conclusions to be drawn from audit
and investigative material produced by the OIG. OCIG also administers the
Civil Monetary Penalty (CMP) program, which the Commissioner of Social
Security delegated to OIG.


Office of Audit
OA conducts comprehensive financial, performance, and systems audits and
evaluations of SSA programs and makes recommendations to ensure that pro-
gram objectives are achieved effectively and efficiently. Financial audits,
required by the Chief Financial Officers (CFO) Act of 1990, assess whether
SSA's financial statements fairly present the Agency's financial position,
results of operations, and cash flow. Performance audits review the economy,
efficiency, and effectiveness of SSA's programs.




                                                                Introduction to Our Organization
        2                            SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                      OA also conducts short-term management and program evaluations and
                      projects focused on issues of concern to SSA, Congress, and the general pub-
                      lic. Evaluations often focus on identifying and recommending ways to prevent
                      and minimize program fraud and inefficiency.


                      Office of Investigations
                      OI conducts and coordinates investigative activity related to fraud, waste,
                      abuse, and mismanagement of SSA programs and operations, in accordance
                      with the Quality Standards for Investigations published by the President's
                      Council on Integrity and Efficiency; the SSA OIG Special Agent Handbook; and
                      other applicable laws, policies, and regulations. These activities include wrong-
                      doing by applicants, beneficiaries, contractors, physicians, interpreters, repre-
                      sentative payees, third parties, and SSA employees. OI also conducts joint
                      investigations with other Federal, State, and local law enforcement agencies.


                      Office of Executive Operations
                      OEO supports OIG by providing information resource management; systems
                      security and development; and the coordination of budget, procurement, tele-
                      communications, facilities and equipment, and human resources. In addition,
                      this office is the focal point for the OIG's strategic planning function and the
                      development and implementation of performance measures required by the
                      Government Performance and Results Act of 1993. OEO oversees the Ombuds-
                      man Program and is also responsible for performing internal reviews to ensure
The IG and the Dep-
uty IG lead SSA’s
                      OIG offices nationwide hold themselves to the same rigorous standards that
fight against fraud   we expect from SSA, as well as conducting investigations of OIG employees,
and abuse.            when necessary. Finally, OEO administers OIG's public affairs, media and inter-
                      agency activities and coordinates responses to congressional requests for
                      information.




Introduction to Our Organization
SSA OFFICE OF THE INSPECTOR GENERAL                                                             3



Significant Activities

Since we are facing some of the            the role the SSN plays in establishing
same challenges as SSA, we also            false identities and facilitating the
need to work faster and smarter to         commission of financial crimes, the
get the job done and maximize tech-        fruits of which may be used to
nological benefits to ensure our suc-      finance terrorism.
cess. We continue to make steady
progress, and our effectiveness is         We have been instrumental in provid-
evidenced by the sustained accom-          ing information and recommenda-
plishments highlighted throughout          tions used by Congress to craft
this report.                               anti-terrorism legislation. Since Sep-
                                           tember 11th, in addition to providing
This section details several of our        investigative support to the national
most significant activities, including     investigations, our auditors have pro-
our:                                       duced in-depth responses to several
                                           congressional inquiries in related
z    Homeland Security Efforts             matters.

z    Fugitive Felon Program                In early October 2001, we provided
                                           Congress with an assessment of           Commissioner
z	   Cooperative Disability                SSA’s business processes for issuing     Barnhart, James G.
     Investigations Program                                                         Huse, Jr. and other
                                           and protecting SSNs. This assess-        executive staff at
                                           ment covered areas such as:              Ground Zero.
z	   Battle Against False Statements
     and Senior Citizen Scams
                                           z	   Securing documentary evidence
z    Partnerships with U.S. Attorneys           presented with SSN applications.

z    Investigative Accomplishments         z    Computerized controls.

                                           z    SSA’s accounting for SSN cards.
Homeland Security
Efforts                                    z    Training for SSA employees.

                                           z	   Public awareness on the proper
Identity theft and Social Security
                                                use and dissemination of the
number (SSN) misuse were already
                                                SSN.
an issue facing law enforcement, the
financial industry, and the American       z	   SSA’s coordination efforts with
public before September 11th. In the            other Federal agencies.
months since that terrible day, it has
become increasingly apparent that
                                           Later in October, we provided an
identity theft was a factor in the ter-
                                           assessment to Congress on SSA’s
rorists’ ability to assimilate them-
                                           programs and operations to identify
selves into our society while planning
                                           fake and stolen SSN cards and
their attacks. This has heightened
                                           described SSA’s coordination efforts
the urgency of the need for Con-
                                           with other Federal agencies to iden-
gress, SSA, and OIG to take addi-
                                           tify suspected terrorists. In Novem-
tional steps to protect the integrity of
                                           ber, we again provided Congress with
the SSN.
                                           our opinion on new techniques to
                                           improve SSN verification and
Our involvement in the ongoing
                                           decrease incidents of identity theft
national investigation of the events of
                                           with new categories of SSNs, sugges-
September 11th is necessitated by



                                                                                  Significant Activities
        4                             SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                       tions on photo-identifications, and      Fugitive Felon Program
                       additional automated controls.
                                                                The Fugitive Felon Program was
                       Throughout our responses to Con-         established as a result of the enact-
                       gress, we have relayed the impor-        ment of the Personal Responsibility
                       tance of limiting the role of the SSN    and Work Opportunity Reconciliation
                       by restricting the commercial use of     Act of 1996, Public Law 104-193,
                       SSNs by institutions such as schools     commonly known as the Welfare
                       and hospitals. Also, we reiterated our   Reform Act, on August 22, 1996.
                       position that SSA needs to               Generally, this law makes a person
                       strengthen its business processes to     ineligible to receive Supplemental
                       prevent future fraudulent activities     Security Income (SSI) payments dur-
                       that may aid terrorists. Our recom-      ing any month in which the recipient
                       mendations included interagency          is:
                       data verification, and data matching
                       agreements between Federal and           z	   Fleeing to avoid prosecution for a
                       State agencies. In particular, we are         crime that is a felony.
                       strongly encouraging SSA to pursue
                       matching agreements with States          z	   Fleeing to avoid custody or
                       who use biometric technology.                 confinement after conviction,
                                                                     under the laws of the place from
                       We know that stolen and counterfeit           which the person flees, for a
                       SSNs can be used by terrorists to             crime or an attempt to commit a
                       hide their identity to commit heinous         crime, which is a felony under the
                       acts and crimes against innocent              laws of the place from which the
                       people. Therefore, we must all act            person flees, or which, in the case
                       together to afford the SSN the pro-           of the State of New Jersey, is a
                       tections appropriate to the stature of        crime of the first through fourth
                       its empowerment.                              degree.

                       Under the direction of the Depart-       z	   Violating a condition of probation
Our special agents
                       ment of Justice, our involvement in           or parole imposed under Federal
assisted in search,
rescue, and recovery   Homeland Security continues with              or State law.
efforts at Ground      our participation in Operation Tar-
Zero.                  mac, Operation Safe Travel, and          The Welfare Reform Act enables SSA
                       other airport security operations at     to suspend SSI payments to fugitives
                       29 major airports around the country.    and parole and probation violators,
                       The most recent of these was in the      and allows us to provide vital infor-
                       Washington, DC area, where together      mation to law enforcement agencies.
                       with other Federal authorities, we       Investigators in our offices often
                       arrested some 105 individuals sus-       work hand-in-hand with local law
                       pected of providing false informa-       enforcement officers in locating and
                       tion—including SSNs—to obtain            apprehending fugitive felons, and in
                       access to secure areas of Reagan         developing fugitive cases from a vari-
                       National Airport, Dulles International   ety of referral sources, such as fugi-
                       Airport, and Baltimore-Washington        tive task forces and SSA staff.
                       International Airport.
                                                                Although the Program has been suc-
                       Considering that we are working          cessful using manual data searches
                       within the limitations of existing       and direct referrals, our continued
                       laws—laws which were written before      success is reliant upon using auto-
                       identity theft and Homeland Security     mated data matches to compare war-
                       became the issues they are today—        rant information at the Federal and
                       we have taken significant steps.



Fugitive Felon Program
SSA OFFICE OF THE INSPECTOR GENERAL                                                                        5


State levels with SSA’s SSI rolls. To              In addition, the following cases high-
date, we have secured Memoranda of                 light several of our efforts in this
Understanding with the National                    area.
Crime Information Center (NCIC),
the FBI, and U.S. Marshals Service.                         Our New York Field Division
                                                            routinely checks lists of
SSA has also entered into computer                          wanted persons displayed in
matching agreements with the States                         the Crime Stoppers publica-
of California, New Jersey, South                   tion, which is managed by local law
Carolina, Kentucky, Nebraska, Ohio,                enforcement agencies and is nation-
Tennessee, Massachusetts, Colo-                    ally known for its distribution of fugi-
rado, Rhode Island, Washington, Del-               tive information. Our investigators
aware, Illinois, Montana,                          discovered that an individual identi-
Connecticut, New York, Pennsylvania,               fied in this publication was receiving The computer
Indiana, Wisconsin, South Dakota,                  SSI payments. We coordinated the       matching
Michigan, Alaska, and Hawaii. In                   arrest of the fugitive with the New    process has
addition to the listed States, SSA has             York State Police and arrested him at  proven to be
also entered into agreement with the               his home without incident.             very effective in
New York City Police Department                                                           identifying
(PD), Baltimore City PD, Baltimore                         The U.S. Marshals Service and fugitives
County PD, and City of Philadelphia                        the U.S. Attorney’s Office     throughout the
PD, and the Montgomery County,                             requested assistance from our country.
Pennsylvania Sheriff’s Office. SSA                         Philadelphia Field Division in
continues to pursue matching agree-                identifying a career criminal and one
ments with the balance of the States               of the most wanted Federal fugitives
that do not enter all of their felony              in Pennsylvania. We determined that
warrant data into NCIC and we con-                 the fugitive was receiving SSI pay-
tinue to work with SSA to further                  ments. Based on the information that
refine and enhance the automated                   we provided, the fugitive was appre-
process.                                           hended and sentenced to serve 30
                                                   years incarceration with an additional
The computer matching process has                  5 years added for the flight to avoid
been very effective in identifying                 prosecution in this matter.
fugitives throughout the country. The
initial match with the Massachusetts               The table below demonstrates the
State Police, for example, resulted in             success of this Program for this
the identification of 2,008 fugitive               reporting period and since its incep-
felons. This match alone identified an             tion on August 1, 1996.
estimated $8.4 million in fraud losses
and a projected savings of
$9.2 million.

                          Fugitive Felon Program Statisticsa

                              October 1, 2001 –
                                                              Since inception in August 1996
                              March 31, 2002

 Fugitives Identified                               20,762                                65,857

 Fugitives Arrested                                   1,972                                 6,984

 Fraud Loss/Overpayments                       $55,764,323                         $137,414,781

 Projected Savings                           $80,094,308                          $213,040,439

a.) Adjustments made to FY 2001 figures resulted in an increase of 24 fugitives from the previously
reported total.



                                                                                             Fugitive Felon Program
           6                                  SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                          Cooperative Disability                              Since Fiscal Year (FY) 1998, we
                          Investigations Program                              opened 13 investigative units in
                                                                              Atlanta, Baton Rouge, Boston, Chi-
                                                                              cago, Houston, Nashville, New York
                          SSA’s Office of Operations and Office
                                                                              City, Trenton, Oakland (California),
                          of Disability, in conjunction with our
                                                                              Roanoke (Virginia), Salem (Oregon),
                          Office of Investigations, manage the
                                                                              St. Louis, and Tampa. We are sched-
                          Cooperative Disability Investigations
                                                                              uled to open 4 units during FY 2002
                          (CDI) Program. To combat disability
                                                                              in Phoenix (Arizona), Cleveland
                          fraud, these units rely on the com-
                                                                              (Ohio), Dallas (Texas), and Seattle
                          bined skills and specialized knowl-
                                                                              (Washington), with 3 additional units
                          edge of our investigators, State and
                                                                              planned for FY 2003.
                          local law enforcement officials, as
                          well as SSA and State Disability
                                                                              The table below outlines our CDI Pro-
                          Determination Services (DDS) per-
                                                                              gram statistical accomplishments for
                          sonnel. The success of the CDI Pro-
                                                                              this reporting period and other case
                          gram is directly attributable to this
                                                                              highlights follow.
                          close collaboration.


                       Cooperative Disability Investigations Program Statistics
                              October 1, 2001 through March 31, 2002

                          Allegations         Confirmed           SSA Recoveries                           Non-SSA
                                                                                       SSA Savings*
                          Received            Fraud Cases         & Restitution                            Savings*

 Atlanta                                116                109              164,566           6,628,708          2,189,389

 Baton Rouge                             70                  15                    -            951,000            255,590

 Boston                                  47                  16                    -            817,152            457,014

 Chicago                                 20                  12             161,440             610,570            266,917

 Houston                                 63                  47                    -          2,716,865          1,263,354

 Nashville                               52                  10              22,318             613,443            314,917

 New York City                           76                  21             480,768           1,759,268          2,911,210

 Oakland                                179                  98                    -          5,686,726          4,227,996

 Roanoke                                 62                   1                    -             66,500                    -

 Salem                                  116                  65                8,160          3,493,960          3,109,910

 St. Louis                               62                  53                    -          3,165,060          1,130,950

 Tampa                                   60                  15              37,149             858,520            367,407

 Totals                                 923                462             874,401          27,367,772         16,494,654
 * SSA program savings are projected at a flat rate of $66,500 for initial claims that are denied as a result of CDI
 investigations, using a formula developed by the Office of Disability. When a CDI investigation supports the cessation of an
 in-pay case, multiplying the actual monthly benefit times 60 months projects the SSA program savings. Non-SSA savings are
 also projected over 60 months whenever another governmental program (e.g., Medicaid, State supplements to SSI, local
 public assistance) ceases to pay benefits as a result of CDI investigative reports.




Cooperative Disability Investigations Program
SSA OFFICE OF THE INSPECTOR GENERAL                                                           7


CDI Case Highlights                               Our Salem CDI Unit investi-
The following cases highlight the suc-            gated a woman who faked
cess of the CDI program in the quest              over 19 disabilities. After
to reduce and deter disability fraud.             receiving a tip from the local
And the cases themselves only begin       Housing Authority, the SSA Office
to tell the story of inter-component      referred the matter for investigation.
cooperation and teamwork. This            Our investigators observed the
cooperative venture has grown over        woman walking for twelve city blocks
time, and its successes garner signif-    and going up and down stairs repeat-
icant support for continued expan-        edly without any apparent problems.
sion.                                     Our investigators interviewed wit-
                                          nesses who provided statements con-
        Our Boston CDI Unit investi-      tradicting the woman’s allegations of
        gated a 34-year old man           poor health and her claim was
        applying for Social Security      denied.
        disability benefits who alleged
to have severe back pain and depres-              Based on an anonymous tip,
sion. He claimed that he was unable               our St. Louis CDI Unit investi-
to cook, clean, shop, or drive for him-           gated a man applying for
self. The DDS referred the case for               Social Security disability ben-
investigation after a local SSA           efits who alleged that he could not
employee observed him exercising at       work because of a skin disorder and
                                                                                    Our special agents
a local gym. Our investigation            severe pain in his right leg. Our         work full-time on
revealed that he regularly exercised      investigators discovered that he          investigations and
at a gym. The man’s claim was             worked 7 days a week as a cab driver      responding to allega-
                                          and his claim was denied.                 tions.
denied.

          Based on a DDS referral, our            Based on a DDS referral, our
         Tampa CDI Unit investigated a            Atlanta CDI Unit investigated
         33-year old woman applying               a man who faked mental
         for Social Security disability           impairments in order to
benefits, who alleged that she could      receive Social Security disability ben-
not work due to severe functional         efits. The man alleged that he could
limitations. Our investigators            not work due to schizophrenia and
observed the woman mowing the             severe social and functional limita-
lawn and doing extensive yard work.       tions. Our investigation revealed that
Our investigators also interviewed        the man worked as a used car sales-
neighbors, who stated that the            man and he and his wife misrepre-
woman asked them not to disclose          sented his functional abilities and
information concerning her yard work      daily activities. Both were incarcer-
to anyone who might question her          ated and ordered to pay a total of
activities. The woman’s claim was         $125,000 restitution to SSA, in addi-
denied.                                   tion to over $54,000 in other fines,
                                          penalties, and restitution.




                                                 Cooperative Disability Investigations Program
      8                              SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                  Battle Against False                      False Statements Case Highlights
                  Statements and Senior                             We recently settled a case
                  Citizen Scams                                     against a man who has an
                                                                    extensive criminal record for
                  Pursuant to a delegation from the                 theft and fraud. He falsely
                  Commissioner of Social Security,          testified that he was unable to per-
                  OCIG administers the CMP enforce-         form even light, seasonal work when
                  ment statues. This authority allows       an Administrative Law Judge ques-
                  OIG to impose CMPs against violators      tioned him regarding his ability to
                  of sections 1129 and 1140 of the          work on the day of his hearing. Nev-
                  Social Security Act. Based on this        ertheless, the man’s employer veri-
                  delegation, we drafted and published      fied that he worked full-time during
                  regulations, trained legal and investi-   the time of the hearing and continued
                  gative staff, and built an infrastruc-    to work until he received his SSI ben-
                  ture that included placing attorneys      efits. Subsequently, the man pro-
                  in several OI Field Divisions to guar-    vided additional false statements to
                  antee the success of this enforce-        an SSA employee and to one of our
                  ment program.                             investigators regarding his prior work
                                                            history. We imposed a $20,000 CMP
                  False Statements Section 1129             against him.

                  Section 1129 prohibits persons from               A representative payee falsely
                  making false statements or represen-              stated that an SSI recipient
                  tations of material facts in connection           was on a “2-week vacation”
                  with obtaining or retaining benefits or           when she actually resided in
                  payments under titles II or XVI of the    Panama and Puerto Rico for a
                  Act. After consultation with DoJ, we      6-month period. The payee continued
                  are authorized to impose penalties of     to collect and cash numerous SSI
                  up to $5,000 for each false statement     checks and forward the money to the
                  or representation, as well as an          SSI recipient who was living outside
                  assessment of up to twice the             the country. We imposed a total CMP
                  amount of any resulting overpay-          of $10,000 against the SSI recipient
                  ment.                                     and her representative payee.
                  The following chart and cases high-              We settled a case against a
                  light our accomplishments for this               religious official who fraudu-
                  reporting period.                                lently received $58,000 in
                                                                   Social Security benefits and
                                                            made a total of four false statements
                                                            to SSA. We imposed $66,000 in CMP
                                                            against him.


                                      False Statements Section 1129 Statistics

                                                            October 1, 2001 through March 31, 2002

                   Cases Referred to OI                                        56

                   Cases Initiated                                             36

                   Cases Closed                                                77

                   Penalties and Assessments                                $392,385

                   Number of Hearings Requested                                1




Battle Against False Statements and Senior Citizen Scams
SSA OFFICE OF THE INSPECTOR GENERAL                                                  9


Misleading Advertising Section 1140 
     their personal information under the
Statistics
                               mistaken belief that they were pro-
Section 1140 prohibits
                   viding this information to SSA or an
the use of SSA’s pro-
                    SSA-approved organization. Once the
gram words, letters,
                     senior provided the information, it
symbols, or emblems in
                   was sold to insurance companies and
advertisements or
                        agents.
other communications

in a manner that falsely conveys 
        In response, we issued two violation
SSA’s approval, endorsement, or
          notices to the company. Due to the
authorization. Each misleading com-
      company’s failure to voluntarily com-
munication is subject to a maximum 
      ply with the Act, OCIG began an
$5,000 penalty.
                          administrative action under Section
                                          1140 of the Act against the company.
We report our accomplishments of 
        In December 2001, after a lengthy
this reporting period and briefly
        investigation in which our Atlanta
describe one of our many successful
      Field Division participated in substan-
cases below.
                             tial negotiation, the company entered
                                          into a Settlement Agreement.
Misleading Advertising Case

Highlights
                               The agreement requires the company
                                          to pay a $115,000 CMP to the trust
After receiving several consumer

                                          fund for past violations of the Act.
complaints, OCIG determined that a

                                          More important, the company is pro-
Mississippi corporation appeared to

                                          hibited from engaging in these
be disseminating direct mail solicita-

                                          deceptive practices in the future. If
tions that violated Section 1140 of

                                          the company violates the Settlement
the Social Security Act (Act). These 

                                          Agreement, it will have to pay SSA
solicitations were designed to glean

                                          $286,372 without further litigation,
valuable personal information from

                                          as well as face additional penalties
the nation’s senior citizens. Many

                                          for the new violation.
seniors provided the company with



                Misleading Advertising Section 1140 Statistics

                                    October 1, 2001 through March 31, 2002

 Complaints Received                                   32

 New Cases Opened                                      14

 Cases Closed                                          5

    No Violation                                       4

    Voluntary Compliance                               0

    Settlement Agreement                           1/$115,000

    Penalty/Court Action                               0

 Hearings Requested                                    1




                                     Battle Against False Statements and Senior Citizen Scams
       10                           SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    Partnerships with U.S.                   We will continue to explore the feasi-

                    Attorneys                                bility of these partnerships in

                                                             other areas of the

                                                             country in sup-

                    OCIG continues to expand its part-
                                                             port of OI’s

                    nership efforts with Offices of U. S.
                                                             investigative 

                    Attorneys in support of our investiga-
                                                             efforts and in 

                    tive efforts. During this reporting
                                                             furtherance of the

                    period, an OCIG attorney working as
                                                             IG’s statutory mission.

                    a Special Assistant United States
                    Attorney in both the District of Ari-
                    zona and the Central District of Cali-   Investigative
                    fornia was able to bring felony          Accomplishments
                    charges against 22 individuals who
                    had committed fraud against SSA.         The following tables represent the
                                                             collective efforts of our OI headquar-
                    In addition, this attorney has been an   ters and Field Divisions, including the
                    active participant in both Districts’    SSA OIG Fraud Hotline.
                    Joint Terrorism Task Forces, educat-
                    ing prosecutors in those offices and     Overall for this reporting period, OI
                    nationwide on the use of SSN misuse      responded to 56,146 allegations
                    charges as part of the multi-agency      received via telephone, correspon-
                    Homeland Security effort, and partic-    dence, fax, or email. Our Hotline, as
We responded to     ipating in the trials of three defen-    well as our OI Field Divisions, receive
over 56,000         dants charged with SSN misuse in         allegations from a variety of sources
allegations         the Homeland Security context.           that cut across SSA programs.
during this
reporting period.   The results of our efforts in Arizona    During this reporting period, our
                    and California have been so favorable    Fraud Hotline referrals to SSA offices
                    that we began exploring the possibil-    resulted in the identification of over
                    ity of assigning SSA attorneys to U.S.   $1,335,000 in overpayments that
                    Attorney’s Offices in other parts of     were posted to SSA records. These
                    the country. Discussions are under-      referrals frequently resulted in the
                    way with the Western District of Ten-    suspension of benefits to individuals
                    nessee and the District of               who were no longer entitled or eligi-
                    Connecticut to place OCIG attorneys      ble to receive these benefits.
                    in those offices to prosecute Social
                    Security felony cases.


                                                    Funds Reported

                     October 1, 2001 through
                                                SSA Funds                   Non-SSA Funds
                     March 31, 2002

                     Scheduled Recoveries                     $15,225,457                     $597,295

                     Fines                                      $366,101                      $522,034

                     Settlements/Judgments                      $475,304                        $1,100

                     Restitution                              $10,299,282                   $19,457,103

                     Estimated Savings                       $136,014,124                   $19,884,597

                     TOTALS                                  $162,380,268                   $40,462,129

                     GRAND TOTAL                                                      $202,842,397




Partnerships with U.S. Attorneys
SSA OFFICE OF THE INSPECTOR GENERAL                                                      11



                            INVESTIGATIVE STATISTICS

                                         October 1, 2001 through March 31, 2002

 Allegations Received                                                    56,146

 Cases Opened                                                             7,151

 Cases Closed                                                             4,950

 Arrests/Indictments                                                      1,837

 Total Judicial Actions                                                   2,847

    Criminal Convictions                                                    739

    Civil/CMP                                                                33

    Illegal Alien Apprehensions                                             103

 Fugitive Felon Apprehensions                                             1,972




                        Allegations Received by Category

                                         October 1, 2001 through March 31, 2002

SSN                                                                      33,485

SSI Disability                                                            7,165

Disability Insurance                                                     10,992

Old-Age and Survivors Insurance                                           2,623

Other                                                                     1,432

SSI Aged                                                                   203

Employee                                                                   246

TOTAL                                                                   56,146




                           Allegations Received by Source

                                         October 1, 2001 through March 31, 2002

 Private Citizens                                                        32,313

 Anonymous                                                                9,338

 SSA Employees                                                            5,318

 Law Enforcement                                                          6,909

 Public Agencies                                                          1,240

 Beneficiaries                                                            1,003

 Other                                                                       25

 TOTAL                                                                  56,146




                                                                     Investigative Accomplishments
      12                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02



                  Significant Management Issues 

                  Facing SSA
                  Each year we assess the most signifi-    ally, its exposure to fraud increases
                  cant management issues facing SSA.       proportionately. Quite simply, many
                  This process is valuable in focusing     unscrupulous individuals target SSA’s
                  congressional attention on               programs to secure funds for their
                  mission-critical management prob-        own personal gain. OIG employees
                  lems and serves as a catalyst for        actively fight fraud in the SSI pro-
                  action in resolving significant issues   gram, Old-Age, Survivors and Dis-
                  across the Agency. These manage-         ability Insurance (OASDI) programs,
                  ment issues are based upon discus-       SSN integrity area, and SSA
OIG is tasked     sions that we had with SSA, Congress     employee fraud area through a wide
with preventing   and other key decisonmakers, and         range of activities.
and detecting     acknowledge the progress SSA has
fraud and abuse   made in each of the areas.               Fraud is an inherent risk within all of
in SSA programs                                            SSA’s core business processes—enu-
and operations.   Based on our audit and investigative     meration, earnings, claims and
                  work and legislative mandates, we        post-entitlement, as they each con-
                  have determined that the 10 most         tain vulnerabilities that provide indi-
                  significant management issues facing     viduals with the opportunity to
                  SSA in FY 2002 are:                      defraud third parties, SSA and/or its
                                                           beneficiaries and recipients. Other
                  1. Fraud Risk                            key risk factors include the detection
                  2. Improper Payments                     of beneficiary deaths and the moni-
                                                           toring of medical improvements for
                  3. Systems Security and Controls         disabled beneficiaries.
                  4. Service Delivery
                                                           For SSA to fulfill its role as a steward
                  5. Human Capital                         of public dollars, it is imperative that
                  6. Performance, Management, and          the universe or magnitude of fraud
                     Data Reliability                      be identified by establishing a base-
                                                           line from which to estimate potential
                  7. Management of the Disability Pro-
                                                           dollars lost to fraud. This issue area
                     cess
                                                           focuses on a subset of the overall
                  8. Integrity of the Earnings Report-     fraud universe, specifically, on pay-
                     ing Process                           ments made to deceased individuals,
                  9. SSN Misuse and Privacy Concerns       SSA employee fraud, and related
                     (Identity Theft)                      audit work. For information on iden-
                                                           tity theft and related SSN misuse
                  10. Integrity of the Representative      fraud, please see Issue 9. Other OIG
                      Payee Process                        fraud prevention efforts are dis-
                                                           cussed in our Significant Activities
                  Below we discuss each of these criti-    section of this report.
                  cal management issues and our
                  related audit and investigative work     Payments Made to Deceased
                  for this reporting period.               Individuals
                                                           Our office, in conjunction with SSA,
                  Issue 1: Fraud Risk                      has taken aggressive action to stop
                                                           erroneous payments to deceased
                  As SSA’s payments to beneficiaries       individuals. This includes front-end
                  approach half a trillion dollars annu-   detection of these improper pay-



Significant Management Issues Facing SSA
SSA OFFICE OF THE INSPECTOR GENERAL                                                          13


ments, controls to prevent such pay-      offices to verify the deaths, take
ments, and detailed investigations to     administrative action, and open
locate wrongdoers when the system         investigations, if appropriate. If the
breaks down. We believe that paying       beneficiary is alive, our investigators
the right person the right amount of      notify the local SSA field office that
benefits is paramount. Payments           the Numident record is in error.
made to deceased individuals under-
mine public trust and confidence in       As of March 31, 2002, OI opened
SSA’s programs. In this area we cur-      1,438 cases and identified
rently have an ongoing national oper-     $20.3 million in fraud loss,
ation, as well as other investigative     $12.8 million in scheduled/actual
and audit activities as described         recoveries, and $26.3 million in pro-
below.                                    jected savings.

BIC “D” Project                           Other Investigative Cases
Our BIC “D” Project is a national                Our Seattle Field Division
operation that focuses on deceased               investigated a man who bur-
auxiliary Social Security beneficiaries          ied his mother on his property
who are in current payment status,               in order to collect her Social
even though the date of death is          Security benefits for over 10 years.
posted in SSA’s records. The project      The man was incarcerated and
name signifies Beneficiary Identifica-    ordered to pay $94,985 in restitution
tion Code “D” for widows and widow-       to SSA.
ers.
                                                  Based on a referral from
The project originated when one of                SSA’s Los Angeles Office, our
our investigators identified a poten-             Los Angeles Field Division
tial problem in SSA death records.                investigated a woman, who
Based on this information, our inves-     for over 13 years, fraudulently con-
tigators and auditors conducted a         verted into her own use over $90,618
pilot project during which they identi-   of her deceased aunt’s Social Secu-
fied all current BIC “D” beneficiaries    rity benefits. The woman failed to
residing in the New England Region        notify SSA about the death of her
with a date of death posted to the        aunt and continued to receive her
Agency’s Numident records. The            aunt’s benefits that were deposited
Numident is a history file that con-      directly into a joint bank account.
tains information on all valid SSN        Prior to being sentenced, the woman
applications since 1936. Deaths are       returned $18,813 to SSA and she
typically noted on the Numident file      was ordered to pay the remaining
only. Overall, the pilot project          $71,805 to SSA.
resulted in the identification of 29
deceased individuals who were over-               Based on a referral from
paid more than $700,000.                          SSA’s Dade City, Florida
                                                  office, our Atlanta Field Divi-
Based on the success of the pilot                 sion determined that a
project, OI launched a national oper-     woman concealed her father’s death
ation. OI identified 2,934 subjects       to continue to receive his Social
who were considered likely to be          Security benefits. She illegally gained
deceased and in current pay status        access to her father’s benefits that
based on a records match of SSA’s         were directly deposited into a bank
payment records against its Numi-         account after his death. She was
dent files. Currently, our investiga-     incarcerated and ordered to pay
tors are working with SSA field           $87,300 restitution to SSA.



                                                                                    Issue 1: Fraud Risk
      14                        SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                          Based on information received    comprises the fewest number of alle-
                          from our Fraud Hotline, our      gations and cases.
                          Philadelphia Field Division
                          investigated a woman who         During this reporting period, we
                  concealed her mother’s death from        opened 63 new employee investiga-
                  SSA and the Office of Personnel Man-     tions, closed 49 employee investiga-
                  agement (OPM) from January 1984          tions, arrested 8 employees, secured
                  through July 1998. The mother’s          indictments of 8 employees, and par-
                  Social Security benefits and OPM         ticipated in 12 judicial actions that
                  annuity payments continued to be         resulted in the conviction of SSA
                  deposited into a bank account she        employees.
                  jointly owned with her daughter. The
                  daughter was incarcerated and            SSA Employee Fraud Highlights
                  ordered to pay $107,241 to SSA and               Our Atlanta Field Division
                  another $260,674 to OPM.                         investigated an SSA employee
                                                                   after receiving an allegation
                          Based on a referral from                 from a representative payee
                          SSA’s Chicago North Office,      who discovered that her child’s retro-
                          our Chicago Field Division       active SSI check was incorrectly
                          investigated a woman who         deposited into an account at the Pub-
                  rented a room to an SSA beneficiary      lic Employees Federal Credit Union.
                  for several months before his death      Our investigation revealed that the
                  in 1991. Our investigation revealed      employee diverted payments of 24
                  that the woman placed his name on        individuals to her personal accounts
                  her mailbox the third day of each        totaling more than $52,000 over a
Detection of
                  month. The mailman would then            9-month period. She was incarcer-
employee fraud
                  deliver the deceased beneficiary’s       ated and ordered to pay $52,240.98
is an
                  SSA and Hotel Employees and Res-         restitution to SSA.
investigative
                  taurant Employees International
priority,
                  Union (HEREIU) checks to her mail-               Based on an anonymous tip,
although it
                  box. In addition, the woman was                  our Atlanta Field Division
comprises the
                  receiving SSI, food stamps, and Med-             investigated an SSA employee
fewest number
                  icaid during the years she was falsely           who illegally accessed SSA’s
of allegations
                  cashing the SSA and HEREIU checks.       computer system to obtain SSN
and cases.
                  She was ordered to pay $87,353 res-      information. She released this infor-
                  titution to SSA and another $42,771      mation to four co-conspirators, who
                  to HEREIU.                               used the information to commit
                                                           credit card fraud, resulting in losses
                  SSA Employee Fraud                       to two major credit card companies.
                  Although the vast majority of SSA’s      These losses exceeded $300,000.
                  over 60,000 employees are trustwor-      The employee and one co-conspirator
                  thy and dedicated civil servants, we     were incarcerated. Another co-con-
                  remain vigilant, knowing that a few      spirator was sentenced to home con-
                  corrupt employees can compromise         finement and arrest warrants remain
                  the integrity of the Social Security     outstanding for the remaining
                  system and undermine the public’s        co-conspirators. The employee was
                  confidence in SSA’s programs. Due to     terminated from her position at SSA
                  the potential for widespread abuse,      and the employee and two co-con-
                  the detection of employee fraud is an    spirators were ordered to each pay
                  investigative priority, although it      $3,855 to cover the cost of the inves-
                                                           tigation.




Issue 1: Fraud Risk
SSA OFFICE OF THE INSPECTOR GENERAL                                                          15


Other Fraud Related Audits               z	   Process VA death information
                                              within a month of when it is
                                              received to ensure payments to
Controls Over SSA’s Processing                deceased beneficiaries are
of Death Records from the                     terminated promptly. In response
Department of Veterans Affairs                to the report, SSA agreed with
                                              our recommendations and is
        Our objective was to deter-           implementing them.
        mine the effect of SSA not
        using the Department of Vet-
        erans Affairs (VA) death         Disclosure of Personal
information to terminate OASDI and       Beneficiary Information to the
SSI payments to deceased beneficia-      Public (Limited Distribution)
ries and recipients. We initiated the
review after receiving a letter from a           SSA releases private informa-
United States Senator regarding a                tion of individuals on the
constituent's concern about the                  Death Master File (DMF). The
death matching operations between                DMF is a national file contain-
SSA and VA.                              ing sensitive personal information,
                                         including the SSN of individuals who
We found that SSA made improper          have been recorded in SSA’s systems
payments to deceased beneficiaries,      as deceased. Further, SSA makes
which could have been avoided if SSA     DMF information available to the
had processed VA death information       public. We believe that the erroneous
timely. Additionally, we found that      dates of death posted to the DMF
the death information provided by VA     place SSA at-risk for disclosure of
was not always accurate. We esti-        sensitive information, potentially
mated that approximately $467,725        subject to Privacy Act provisions.
in improper payments were made to
302 deceased beneficiaries between       We recommended that SSA:
March and May 2001.
                                         z    Establish a workgroup.
We acknowledged that SSA has cor-
rected the formatting and processing     z	   Consider routinely matching the
problems it had with VA’s provided            DMF with the Master
death information. We believe SSA             Representative Payee File.
and VA need to work together to
ensure death information is as accu-     z	   Consider implementing prior OIG
rate as possible so resources are not         recommendations.
expended verifying erroneous death
information.                             In response to the report, SSA
                                         agreed to establish the suggested
We recommended that SSA:                 workgroup and provide updated
                                         information on our prior recommen-
z	   Routinely review its management     dations.
     information systems input and
     output reports to ensure the VA     Because of the sensitive nature of
     death information is processed      this audit, we cannot describe in
     completely.                         detail the findings of this report. This
                                         report is only available for limited
                                         distribution.




                                                                                    Issue 1: Fraud Risk
       16                             SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                                                               Issue 2: Improper
                      Congressional Response Report:
                      SSA's SmartPay Program
                                                               Payments

                             On September 24, 2001,            SSA is responsible for issuing benefit
                             Senator Charles Grassley          payments under the Old-Age and
                             requested that we communi-        Survivors Insurance (OASI), Disabil-
                             cate our evaluative experi-       ity Insurance (Dl) and SSI programs.
                      ence with the SmartPay program at        In FY 2001, SSA issued $456 billion
                      SSA. Specifically, he requested infor-   in benefit payments to 52.4 million
                      mation concerning:                       beneficiaries. Considering the volume
                                                               and amount of payments SSA makes
                      z	   Instances of SSA employees who      each month, even the slightest error
                           have been investigated and          in the overall process can result in
                           disciplined for misusing their      millions of dollars in overpayments or
                           Government purchase and travel      underpayments.
                           cards.
                                                               Improper payments are defined as
                                                               payments that should not have been
                      z	   Details of audits and
                                                               made or that were made for incorrect
                           investigations regarding the use
                                                               amounts. Examples of improper pay-
                           of SmartPay accounts.
                                                               ments include inadvertent errors,
                      In a prior audit entitled, Review of     payments for unsupported or inade-
                      SSA’s Internal Controls over Interna-    quately supported claims, payments
Our focus on                                                   for services not rendered, or pay-
fraud risk is         tional Merchant Purchase Authoriza-
                      tion Card Payments, issued in June       ments to ineligible beneficiaries. The
based on                                                       risk of improper payments increases
program               2000, we identified several internal
                      control weaknesses in the Govern-        in programs with:
eligibility factors
that individuals      ment purchase card process. We
                      believe these weaknesses increase        z	   A significant volume of
misrepresent                                                        transactions.
to attain or          the potential for fraud, waste, and
maintain              abuse in connection with Government
                                                               z	   Complex criteria for computing
eligibility.          charge card purchases, as well as
                                                                    payments.
                      hindering SSA’s ability to detect such
                      actions. To strengthen Government        z	   An overemphasis on expediting
                      purchase card internal controls, we           payments.
                      made 10 recommendations to SSA.
                      SSA generally agreed with our rec-       Since SSA is responsible for issuing
                      ommendations.                            timely benefit payments for complex
                                                               entitlement programs to 50 million
                      We also informed Senator Grassley        individuals, SSA is at-risk of making
                      that according to SSA, there were        significant improper payments.
                      112 instances of Government pur-
                      chase card misuse in FYs 2000 and        Each year, SSA reports payment
                      2001. The disciplinary actions ranged    accuracy rates for its OASI and SSl
                      from a reprimand to the employee’s       programs, as well as the amount of
                      termination. We also investigated        actual overpayments identified. SSA
                      four cases of Government purchase        bases its payment accuracy rate on a
                      card misuse in FYs 2000 and 2001.        detailed analysis of a sample of
                      The disciplinary actions ranged from     cases. However, while this analysis is
                      a 7-day suspension to incarceration.     more extensive than SSA’s normal
                                                               processes, it still relies on beneficiary
                                                               self-reporting events that can affect
                                                               eligibility and/or payment amounts.



Issue 2: Improper Payments
SSA OFFICE OF THE INSPECTOR GENERAL                                                          17


The payment accuracy review does           als receiving State workers' compen-
not include the medical factors that       sation benefits, continue to drain the
affect benefit eligibility. Further, the   Social Security Trust Fund.
review does not count all types of
improper payments as “inaccurate”          During this reporting period, we con-
for purposes of payment accuracy.          ducted the following audit.
For example, payments made after a
beneficiary’s death are not counted
as “inaccurate” during the payment         SSA's Management of Its Federal
accuracy review.                           Employees' Compensation Act
                                           Program
As a result, SSA's payment accuracy
rates do not reflect the total improper           As a follow-up on an earlier
payments that occur in SSA' s pro-                report, Review of the Social
grams. The lack of correspondence                 Security Administration's
between SSA’s accuracy rates and                  Management of Claims Filed
actual overpayments is clearly dem-        Under the Federal Employees' Com-
onstrated by comparing SSA' s pay-         pensation Act, issued on May 25,
ment accuracy rate for FY 2000.            1995. We reported that SSA did not:
Based on the payment accuracy rate,
we expected $140 million in overpay-       z	   Verify the accuracy of information
ments for the OASI program in FY                in the chargeback report.
2000. However, actual OASI overpay-
ments identified were $1.47 billion.       z	   Establish procedures to evaluate
                                                whether employees could return       Paying accurate
Since the Dl and SSI programs are               to work.                             and timely
much more complex than the OASI                                                      benefits is a
                                           z	   Adopt procedures to ensure the
program—and rely heavily on individ-                                                 primary
                                                Federal Employees'
ual self-reporting of events affecting                                               commitment of
                                                Compensation Act (FECA) claims
program eligibility—we would expect                                                  SSA, along with
                                                were handled on a timely basis.
SSA's overpayment rates for the Dl                                                   stewardship of
and SSI programs to be significantly       z	   Implement procedures requiring       the Social
higher than the rate for the OASI               the investigation of third-party     Security Trust
program. We compared SSA's pay-                 liabilities.                         Fund.
ment accuracy rates to its actual
overpayment amounts for FY 1999
                                           FECA is administered by the Depart-
and 2000, and estimated SSA's
                                           ment of Labor (DoL) and authorizes
unknown portion of improper pay-
                                           the payment of medical expenses
ments to be about $2 billion. While
                                           and compensation for wages to civil-
neither SSA nor we have determined
                                           ian Federal employees disabled by
the exact amount of improper pay-
                                           job-related injuries or illnesses. SSA
ments in SSA's programs, we are
                                           assists employees in filing claims,
continuing our efforts to refine such a
                                           facilitates the processing of claims in
calculation and believe our $2 billion
                                           coordination with DoL and monitors
estimate is valid.
                                           the employees’ medical status in
                                           order to return employees to work as
Working together with SSA, we've
                                           soon as possible.
made great strides in reducing bene-
fit payments to prisoners and SSI
                                           We found that SSA was not effec-
payments to fugitive felons over the
                                           tively managing its FECA program.
past several years, and these efforts
                                           SSA has inadequate internal controls
continue. However, erroneous pay-
                                           to govern and guide the FECA pro-
ments, including those to deceased
                                           gram and its inaction to correct pre-
beneficiaries, students, and individu-



                                                                       Issue 2: Improper Payments
       18                              SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                       viously reported program deficiencies           continuing disability, especially
                       cast doubt on the Agency's ability to           for cases over 1-year old.
                       properly develop and manage its pro-
                       gram. We also reported that SSA did        z	   Develop and implement an
                       not use existing technology for pro-            information system that uses
                       gram information management and                 information technology to
                       did not use automated information in            manage and monitor FECA cases.
                       identifying cases for review.
                                                                  z	   Use a verification process similar
                       We concluded that ineffective pro-              to the Nonagenarian Project as a
                       gram management resulted in the                 way to continue ensuring FECA
                       Agency paying at least $1.24 million            benefit payments are not made to
                       in program costs for non-SSA                    deceased beneficiaries.
                       employees in the chargeback year
                       1998, none of which has been recov-        In response to the report, the Agency
                       ered. If SSA does not address              informed us that many of the recom-
                       long-standing and recently identified      mendations have been implemented
                       program deficiencies and does not          and provided information on actions
                       strengthen internal controls over          planned to address those that have
                       chargeback reports, third-party liabil-    not been completed.
                       ity, and case management, we esti-
                       mated that the Agency may                  Issue 3: Systems
                       unnecessarily expend approximately
                       $233.7 million over the next 10
                                                                  Security and Controls
                       years.
                                                                  As technology advances and our reli-
                                                                  ance on technology increases, the
                       We recommended that SSA:
                                                                  need for a strong information infra-
                                                                  structure becomes more important.
                       z	   Designate a program official to
OIG computer experts                                              Protection of critical information and
work to prevent             oversee the agencywide
                                                                  its infrastructure is an issue that is
unauthorized access         management of SSA's FECA
                                                                  significant not just to the Agency, but
to confidential             program.
information and                                                   to the entire Government. Presiden-
critical systems.      z	   Develop and implement internal        tial Decision Directive (PDD) 63,
                            controls to address the timely        issued in 1999, requires Federal
                            distribution, review, and use of      agencies to identify and protect their
                            chargeback reports.                   critical infrastructure and assets. One
                                                                  of SSA’s most valuable assets is the
                       z	   Verify that all claimants for whom    information it has been assigned to
                            it is paying FECA program costs       use to complete its mission. As SSA
                            are actually SSA employees.           increases its dependence on technol-
                                                                  ogy to meet the challenges of
                       z	   Recover all FECA program costs        ever-increasing workloads, a secure
                            paid by the Agency for non-SSA        Agency information infrastructure is a
                            employees.                            fundamental requirement.

                       z	   Monitor compliance with SSA's         Along with the explosive growth in
                            guidance on third-party liability     computer interconnectivity comes
                            processing.                           the risk of disrupting or sabotaging
                                                                  critical operations, reading or copying
                       z	   Implement necessary policy and
                                                                  sensitive data, and tampering with
                            procedural changes to periodically
                                                                  critical processes. Those who wish to
                            verify Agency case files for recent
                                                                  disrupt or sabotage critical opera-
                            medical evidence to substantiate
                                                                  tions have more tools than ever.



Issue 3: Systems Security and Controls
SSA OFFICE OF THE INSPECTOR GENERAL                                                            19


Strong systems security and controls       z	   Creating an Electronic Folder (EF)
are essential to protecting SSA’s criti-        that provides simultaneous
cal information infrastructure. SSA’s           access and sharing of disability
current information security chal-              information to all disability
lenge is to understand system vul-              processing components.
nerabilities and how to mitigate
them. At SSA, this means ensuring          z	   Automating the field office
its critical information infrastructure,        disability intake process.
such as the Internet and access to
the networks, is secure. By improving      z	   Leveraging the investment in
systems security and controls, SSA              existing Disability Determination
will be able to use current and future          Services (DDS) legacy systems.
technology more effectively to fulfill
                                           z	   Automating the Office of Hearings
its users’ needs.
                                                and Appeals' (OHA) business
                                                processes.
SSA addresses critical information
infrastructure and systems security
in a variety of ways. It created a Crit-   An integral factor for meeting these
ical Infrastructure Protection work-       objectives is the integration of the EF
group that continually works toward        into the disability business process.       SSA’s current
compliance with PDD 63. The work-          The EF will allow case processing           information
group has created several teams to         components to stop relying upon the         security
address Agencywide systems security        movement of a paper folder to pro-          challenge is to
matters. SSA also routinely sends out      cess disability claims. The Agency is       understand
security advisories to its staff of over   conducting a series of proof of con-        system
60,000 and has hired outside con-          cept pilots to determine the function-      vulnerabilities
tractors to provide expertise in this      ality, technology, and security             and how they
area.                                      requirements needed to help make            can be
                                           eDib successful.                            mitigated.
SSA has made notable progress in
addressing the information protection      Due to the magnitude and signifi-
issues raised in prior years. Despite      cance of this effort, our office is peri-
these accomplishments, SSA’s sys-          odically monitoring the electronic
tems environment remains threat-           service delivery aspects of eDib
ened by security and integrity             through various SSA steering com-
exposures impacting key elements of        mittees. We are providing input to
its distributed systems and networks.      the project’s development implemen-
                                           tation process and provide periodic
SSA began implementing its Elec-           reports to the status of these initia-
tronic Disability (eDib) System in the     tives. We will assess the success of
Spring of 1999. The eDib System is         these initiatives as they are imple-
the Agency’s technological approach        mented.
to automating the disability claims
process. SSA is also designing a uni-      System Security Case Highlights
fied quality assessment process to         OI’s Critical Infrastructure Division
measure the accuracy of decision-          (CID) is an inter-component team
making throughout the disability           dedicated to OIG’s crucial mission of
adjudication process.                      fulfilling the requirements of PDD 63
                                           and 64, which pertain to the protec-
The eDib project is comprehensive          tion of critical SSA systems from
for all components in the disability       cyber-crimes and terrorism.
processing enterprise and is focused
around four major objectives:              During this reporting period:




                                                           Issue 3: Systems Security and Controls
      20                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                            Our CID’s Electronic Crimes      Issue 4: Service
                            Team (ECT) and the Atlanta       Delivery
                            Field Division investigated an
                            employee of a State DDS who
                                                             SSA is committed to providing citi-
                   installed unauthorized password-
                                                             zen-centered, world-class service.
                   cracking software against files that
                                                             Many initiatives are under way, but
                   contained passwords and personal
                                                             ever-increasing workload demands,
                   identification numbers (PIN) of SSA
                                                             changing user preferences, emerg-
                   employees. If this unauthorized
                                                             ing technologies, and other factors
                   attempt had been successful, it could
                                                             will require continual modifications to
                   have allowed the person to access
                                                             the way SSA delivers service in the
SSA needs to       sensitive information available only
                                                             future. Providing quality service to
balance its        to SSA employees.
                                                             the public remains a critical manage-
service delivery
                                                             ment issue facing SSA, and SSA rec-
and stewardship    Even though this person was an
                                                             ognizes there are a number of
roles.             authorized user within the SSA net-
                                                             significant service delivery problems
                   work, it was determined that he will-
                                                             that need attention. One such prob-
                   fully exceeded his authority by using
                                                             lem is the complexity of the pro-
                   this software. Due to ECT’s quick
                                                             grams SSA administers. SSA’s
                   response, we were able to identify
                                                             workloads will continue to increase as
                   the vulnerability exposed by this
                                                             “baby boomers” reach retirement
                   activity and make appropriate recom-
                                                             age, challenging SSA to find ways to
                   mendations to the Agency for correc-
                                                             keep pace.
                   tive actions.
                                                             As the Social Security Advisory Board
                           Based on a referral from the
                                                             reported, the result has been, and
                           National Computer Center in
                                                             will continue to be, uneven service.
                           Baltimore, Maryland, CID’s
                                                             Persons filing for old-age or survivor
                           ECT and the Philadelphia Field
                                                             benefits are likely to be satisfied with
                   Division responded to a potential sys-
                                                             the service provided. However, indi-
                   tems security threat involving the
                                                             viduals with complicated cases, such
                   misuse of Government computers by
                                                             as DI or SSI, may encounter prob-
                   an SSA employee. While on official
                                                             lems. As workloads increase, the
                   duty, an SSA Headquarters employee
                                                             dimensions of SSA’s problems can be
                   placed pornographic web-links on a
                                                             expected to grow. If left unchanged,
                   State DDS systems server, which was
                                                             the public will be faced with crowded
                   under the control of a SSA regional
                                                             reception areas, long waiting times,
                   office.
                                                             inadequate telephone service, and
                                                             reduced quality of work.
                   Our investigation revealed that the
                   SSA employee routinely downloaded
                                                             Ahead of SSA is a future that prom-
                   approximately 300 pornographic
                                                             ises major technological advances
                   images from the Internet to his SSA
                                                             and exponential growth in workloads.
                   workstation. These types of images
                                                             This growth will occur at the same
                   are known to pose a threat to sys-
                                                             time SSA faces an unusual wave of
                   tems security and could contain tro-
                                                             management and staff retirements.
                   jans, worms or viruses, which are
                                                             Even at current staffing levels, SSA
                   known to cause unnecessary down-
                                                             finds it challenging to maintain an
                   time of personnel and equipment,
                                                             acceptable level of service, especially
                   potentially placing SSA’s system in a
                                                             in its most complicated workloads.
                   vulnerable state. The ECT addressed
                   this incident and made appropriate
                                                             To meet the expected increases in
                   recommendations to the Agency for
                                                             future public demands, SSA will need
                   corrective and administrative actions.



Issue 4: Service Delivery
SSA OFFICE OF THE INSPECTOR GENERAL                                                         21


to explore new and innovative ways        As a steward of taxpayer dollars, SSA
to address service delivery problems      is accountable to the American public
and ensure the right individuals get      and the Congress for how it spends
paid timely and accurately. However,      and safeguards funds against
with increasing workloads and             improper payments—payments that
expected human capital shortages,         should not have been made or that
SSA will undoubtedly be challenged        were made for incorrect amounts. In
as it moves to strengthen and revital-    Mastering the Challenge, SSA’s Stra-
ize future employee ranks while it        tegic Plan for 2000-2005, SSA sets
addresses greater demands for ser-        forth one of its strategic goals as
vices. Related human capital issues       “…to ensure the integrity of Social
are discussed under Issue 5.              Security programs, with zero toler-
                                          ance for fraud and abuse.”
To address the service delivery
issues, our auditors issued the fol-      Following are the results of our lim-
lowing reports this period.               ited review of the reliability of the
                                          cost-benefit ratios reported by SSA.

Congressional Response Report:            Office of Child Support Enforcement
Select SSA Stewardship Efforts            Match - SSA did not conduct a
and Reported Savings                      cost-benefit analysis to support the 1    OIG auditors review
                                          to 3 ratio claimed for the OCSE           and assess SSA’s
        Congressman E. Clay Shaw,         Match.                                    processes and
        Jr., requested that we assess                                               programs to prevent
        SSA’s stewardship efforts and     Supplemental Security Income Rede-        fraud and abuse.
        the program savings those         terminations - The cost-benefit ratio
efforts generated. Congressman            for SSI redeterminations was over-
Shaw specifically requested that we       stated because all associated costs
review the six cost-benefit ratios SSA    were not included when the 1 to 7
reported for stewardship activities.      ratio was estimated.

Our objectives were to assess the         Windfall Elimination/Government
reliability of SSA’s methodologies for    Pension Offset Match with OPM - SSA
estimating administrative costs it        reported one cost-benefit ratio of 1 to
dedicated to program stewardship          6 for its Windfall Elimination Pension
and to determine the reliability of the   /Government Pension Offset match,
cost-benefit ratios SSA reported for      however, the Agency actually con-
several activities. We determined the     ducted separate cost-benefit analy-
liability of the following activities:    sis.

z	   Office of Child Support              Disability Pre-Effectuation Reviews -
     Enforcement (OCSE) Match             The cost-benefit ratio for disability
                                          pre-effectuation reviews may be
z    SSI Redeterminations                 overstated because SSA did not
                                          include all costs when calculating the
z	   Windfall Elimination/Government
                                          1 to 13 cost-benefit ratio.
     Pension Offset Match with OPM

z	   Disability Pre-effectuation          Tax Refund Offset - SSA could not
     Reviews                              provide support for the 1 to 34
                                          cost-benefit ratio reported for its tax
z    Tax Refund Offset                    refund offset.

z    Continuing Disability Reviews        Continuing Disability Reviews - Based
                                          on our analysis of the estimated



                                                                           Issue 4: Service Delivery
      22                           SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    costs and benefits, we concur with       Increasing demands for services—
                    the 1 to 11 ratio SSA reported for       Beginning around 2008, the 76 mil-
                    CDRs.                                    lion “baby boomers” will not only
                                                             begin to move into their disabil-
                    We did not provide recommenda-           ity-prone years, they will begin to
                    tions.                                   retire. SSA anticipates that by 2010,
                                                             applications for DI will increase by as
                    Issue 5: Human Capital                   much as 54 percent over 1999 levels
                                                             and applications for old-age benefits
                                                             by 20 percent over 1999 levels. A
                    In January 2001, the General
                                                             large proportion of retirees is
                    Accounting Office (GAO) designated
                                                             expected to be non-English speaking.
                    strategic human capital manage-
                                                             Also, many disability cases are
                    ment as a high-risk, governmentwide
                                                             expected to be mental-related
                    issue needing immediate attention.
                                                             impairments. Citizen demands for the
                    This issue involves four pervasive
                                                             way that services will be delivered
                    Federal agency human capital chal-
                                                             are also expected to change, with the
                    lenges.
                                                             public wanting different modes of
                                                             accessibility. For example, using the
                    1.	 Acquisition and development of
                                                             Internet and “one-stop shopping” to
                        staffs whose size, skills, and
                                                             access services and programs
                        deployment meet agency needs—
GAO and OIG                                                  through one interaction with the Gov-
                        ensuring current and future
have identified                                              ernment.
                        human capital needs are identi-
specific human
                        fied and gaps are filled through
capital                                                      Retirement of a substantial portion of
                        such efforts as effective recruit-
challenges and                                               SSA’s workforce—SSA workforce
                        ing, training, and contracting.
vulnerabilities                                              retirements will peak between 2007
that impact the     2.	 Leadership continuity and succes-    and 2009 with about 2,500 employ-
Agency’s ability        sion planning—ensuring there are     ees retiring per year. Over 80 percent
to meet                 qualified people available to        of SSA’s upper-level managers and
projected service       assume top leadership positions      executives (General Schedule Grades
delivery needs.         before they become available.        14 and 15 and Senior Executive Ser-
                    3.	 Strategic human capital planning     vice) will be eligible to retire by 2010.
                        and organizational alignment—        Between 2000 and 2010, about 60
                        ensuring human capital strategies    percent of supervisors, 34 percent of
                        support strategic and program        claims representatives, and 29 per-
                        goals so an agency’s mission,        cent of computer specialists are pro-
                        vision, and objectives are real-     jected to retire.
                        ized.
                                                             Mixed success in past technological
                    4.	 Creation of results-oriented orga-   investments—To address anticipated
                        nizational cultures—ensuring staff   increased workload demands, SSA
                        is empowered and motivated in        plans to rely heavily on information
                        conjunction with workplace           technology. For example, SSA imple-
                        accountability.                      mented the Intelligent Worksta-
                                                             tion/Local Area Network to provide
                    GAO and OIG have identified specific     the automated infrastructure for its
                    SSA human capital challenges/vul-        redesigned work processes. However,
                    nerabilities that impact the Agency’s    according to GAO, some of the
                    ability to meet projected service        Agency’s past experiences have
                    delivery needs. These include the fol-   shown mixed success. GAO reports
                    lowing:                                  that SSA has not been able to clearly
                                                             demonstrate benefits resulting from




Issue 5: Human Capital
SSA OFFICE OF THE INSPECTOR GENERAL                                                          23


some of its most significant invest-      Much of our work in this area has
ments.                                    focused on SSA’s implementation of
                                          the GPRA and CFO Act as discussed
Issue 6: Performance,                     below.
Management, and Data
Reliability                               Inspector General Statement on
                                          SSA’s Major Management
To effectively meet its mission, man-     Challenges
age its programs, and report on its
performance, SSA needs sound per-                 The Reports Consolidation Act
formance and financial data. Con-                 of 2000 requires Inspectors
gress, other external interested                  General to provide a sum-
parties, and the general public also              mary and assessment of the
want sound data to monitor and eval-      most serious management and per-
uate SSA’s performance. SSA prima-        formance challenges facing their
rily relies on internally generated       agencies and the agencies' progress
data to manage the information it         in addressing them. In January 2001,
uses to administer its programs and       we identified the following 10 signifi-
to report to Congress and the public.     cant management issues facing the
                                          SSA for FY 2001:
The necessity for good internal data
                                                                                     Computer
governmentwide has resulted in the        z    Critical Information Infrastructure
                                                                                     specialists provide
passage of several laws and regula-                                                  critical support to
tions to make Government more             z    Disability Redesign                   all of OIG’s offices
accountable. The Government Perfor-                                                  across the nation.
mance and Results Act of 1993             z    Earnings Suspense File
(GPRA) and the CFO were passed to
                                          z    Enumeration
create an environment of greater
accountability within Federal agen-       z    Fraud Risk
cies.
                                          z	   Government Performance and
In accordance with GPRA, SSA has               Results Act
set forth its mission and strategic
goals in 5-year strategic plans,          z    Identity Theft
established yearly targets in its
annual performance plans, and             z    Representative Payees
reported on its performance in its
annual performance reports. Each          z    Service to the Public
year, we conduct reviews to assess
                                          z    Systems Security and Controls
the reliability of SSA’s performance
data and evaluate the extent to
which SSA’s performance plan              We reported that, during FY 2001,
describes SSA’s planned and actual        SSA took action to address these
performance meaningfully. Our work        issues, many of which are of a
to date has demonstrated that SSA is      long-term nature and do not lend
generally committed to the produc-        themselves to quick fixes. We pro-
tion and use of reliable performance      vided an assessment of the status of
management data, but improve-             the 10 management challenges in the
ments would further enhance SSA’s         report. Portions of our assessment
ability to produce accurate and           reported that SSA should:
actionable management information.
                                          z	   Focus on three stages of SSN
                                               protection—issuance of the SSN



                                       Issue 6: Performance, Management, and Data Reliability
      24                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                       card, maintenance during the life   The following summarizes our work
                       of the SSN holder and upon the      in the performance and financial
                       individual’s death.                 areas.

                  z	   Improve capability to avoid         Performance Reviews
                       improper payments to fugitive
                       felons and pursue legislation to            In the first 6 months of
                       prohibit the payment of OASDI               FY 2002, we released six
                       benefits to fugitives.                      reports with objectives to
                                                                   determine the reliability of
                  z	   Improve communications with         the data used to measure SSA’s pro-
                       employers and enforce existing      gram performance. These reports
                       regulations, if it expects to       also addressed the quality of the per-
                       improve the accuracy of reported    formance indicators supported by the
                       wages.                              performance data reviewed. In all six
                                                           reports, we concluded that the per-
                  z	   Address vulnerabilities and
                                                           formance data reviewed was reliable.
                       weaknesses in the representative
                                                           The six reports are listed below:
                       payee program.
                                                           z	   Performance Measure Review:
                  Citizens expect SSA to provide                Reliability of the Data Used to
                  prompt service in an efficient and            Measure the Timely Processing of
                  effective manner. Additionally, Presi-        Disability Insurance Claims.
                  dent Bush has highlighted the need
                  to improve Government performance        z	   Performance Measure Review:
                  through the release of the President’s        Reliability of the Data Used to
                  Management Agenda. Within the                 Measure Disability Claims
                  agenda, the President calls for a Gov-        Processing.
                  ernment that is citizen-centered,
                  results-oriented, and market-based.      z	   Performance Measure Review:
                                                                Reliability of the Data Used to
                  The President’s call for improved             Measure Anti-Fraud Performance.
                  Government performance compli-
                  ments existing laws that were            z	   Performance Measure Review:
                  enacted to create an environment of           Reliability of the Data Used to
                  greater accountability within Federal         Measure Public Knowledge of the
                  agencies. Most notably, CFO and               SSA.
                  GPRA call for sound financial and per-
                                                           z	   Performance Measure Review:
                  formance management through the
                                                                Reliability of the Data Used to
                  creation and use of reliable manage-
                                                                Measure the Quality of the SSA’s
                  ment information. Given the impor-
                                                                Research.
                  tance that good management has on
                  SSA’s stewardship and the services       z	   Performance Measure Review:
                  ultimately delivered to citizens, we          The Social Security
                  have placed a great amount of                 Administration’s Transition
                  resources in monitoring SSA’s finan-          Planning.
                  cial and performance management
                  efforts.
                                                           While the reports concluded that the
                  Much of our work in this area has        data used to measure performance in
                  focused on SSA’s implementation of       the areas identified were reliable, we
                  the CFO Act and GPRA.                    concluded that some of the indicators
                                                           SSA uses to measure performance in
                                                           these areas could be improved. For



Issue 6: Performance, Management, and Data Reliability
SSA OFFICE OF THE INSPECTOR GENERAL                                                 25


example, we recommended that SSA
should separate the reporting of the      Audit of the Fiscal Years 2001
initial claims processing times by pro-   and 2000 Financial Statements of
gram, rather than combine both DI         SSA and the Results of OIG’s
and SSI claims processing times as        Review Thereof
one measure. In this way, differences
between the programs—with their                    PricewaterhouseCoopers LLP

separate customer bases—could be                   (PwC) performed SSA’s

identified.                                        FY 2001 financial statement 

                                                   audit. On November 30,

We also found the performance indi-       2001, PwC issued an unqualified
cators related to SSA’s transition        opinion on SSA’s FY 2001 financial
planning, “Create Agency change           statements. In PwC’s opinion, “…the
strategy to instill values,” and “Com-    consolidated and combined financial
plete Agency plan for transitioning to    statements … present fairly, in all
the workforce of the future,” to be       material respects, the financial posi-
limited and not in line with the intent   tion of SSA at September 30, 2001
of GPRA. We recommended that the          and 2000…” However, PwC’s audit
former indicator be replaced with an      report identified a reportable condi-
indicator that would help SSA to indi-    tion in SSA’s internal control. PwC
cate the quality of the change strat-     identified a control weakness and
egy and quantify the progress made        reported that SSA needs to further
in achieving that strategy over time.     strengthen controls to protect its
We also recommended that the sec-         information. SSA generally agreed
ond indicator be replaced with mile-      with this finding and PwC’s related
stones specified in the workforce         recommendation.
transition plan, so SSA can track
whether it is actually creating a
workforce able to serve its diverse       Status of SSA’s Implementation
customers in the 21st century.            of FY 1999 Management Letter
                                          Recommendations
Financial Reviews
                                                  PwC performed the audit of
The CFO requires the OIG or an inde-              SSA’s FY 1999 financial state-
pendent external auditor, as deter-               ments. The audit identified
mined by the IG, to audit SSA’s                   conditions that did not have a
financial statements in accordance        material impact on the financial
with GAO’s Government Auditing            statement, but were worthy of man-
Standards. In addition to this            agement attention. To report these
requirement, we also conduct other        conditions, PwC issued Management
financial-related audits of SSA’s oper-   Letters Part 1 and Part 2. Manage-
ations and review the quality of sin-     ment Letter, Part 1 contains details of
gle audits conducted by State             a sensitive nature to SSA and is,
auditors and public accounting firms.     therefore, restricted in its use. Man-
The following summarizes a selection      agement Letter, Part 2 contains
of our financial reviews and audit        issues of a general nature and is not
work for this reporting period.           limited in its distribution, but is
                                          intended as information for manage-
                                          ment and the IG of SSA.

                                          Our audit focused on the status of
                                          selected findings and recommenda-
                                          tions in PwC’s FY 1999 Management
                                          Letter – Part 2, Recommendations to



                                      Issue 6: Performance, Management, and Data Reliability
       26                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    Improve Management Controls and           disability claims processed, and the
                    Operations Resulting from the FY          average processing time was 106
                    1999 Financial Statement audit. We        days. If a request for reconsideration
                    performed follow-up work on 20 of         is filed, the claim is returned to the
                    the 42 recommendations.                   DDS for a reconsideration determina-
                                                              tion.
                    In summary, SSA has not fully imple-
                    mented 13 of the 20 recommenda-           Once SSA establishes an individual is
                    tions, although some actions had          eligible for disability benefits under
                    been taken to begin addressing these      either DI or SSI, the Agency turns its
                    issues. Eight of the 13 incomplete        efforts toward ensuring individuals
                    recommendations are repeat issues         only continue to receive benefits as
SSA strives to      from the FY 1997 financial statement      long as they meet SSA’s eligibility cri-
deliver the         audit.                                    teria. Disability benefits may not con-
highest level of                                              tinue if a beneficiary/recipient
services by         We made specific recommendations          returns to work and has income over
making fair,        on SSA’s budgetary reporting and          SSA’s allowable limit; a CDR shows
consistent,         monitoring of SSI expenses and obli-      the individual is no longer disabled;
accurate, and       gations. We also recommended SSA          or a child turns 18-years-old and is
timely disability   continue to work to bring all of the      no longer considered disabled under
determinations      issues identified by PwC to closure       adult criteria. In FY 2001, over 1.7
at all              within the next audit cycle.              million periodic CDRs were pro-
adjudicative                                                  cessed.
levels.
                    Issue 7: Management of
                                                              OHA is responsible for holding hear-
                    the Disability Process                    ings and issuing decisions at two dis-
                                                              tinct stages in SSA’s appeals process.
                    SSA administers two programs—DI           OHA’s field structure consists of 10
                    and SSI—that provide benefits based       regional offices and 138 hearing
                    on disability. Most disability claims     offices. These offices are staffed by
                    are initially processed through a net-    approximately 1,100 Administrative
                    work of Social Security field offices     Law Judges (ALJ) and 5,700 support
                    (FO) and State DDSs. SSA claims           staff. In FY 2001, hearing offices
                    representatives in the FOs are            received 78,833 appeals and dis-
                    responsible for obtaining applica-        posed of 110,668 cases.
                    tions for disability benefits and veri-
                    fying non-medical eligibility             Over the last several years, SSA has
                    requirements, which may include           tested several improvements to the
                    age, employment, marital status, or       disability claims process as a result of
                    Social Security coverage information.     concerns about the timeliness and
                                                              quality of customer service. These
                    The FO sends the case to a DDS for        disability improvement initiatives
                    evaluation of disability. The DDSs,       have been piloted over the last few
                    which are fully funded by SSA, are        years and includes all levels of eligi-
                    State agencies responsible for devel-     bility determination—beginning with
                    oping medical evidence and render-        State DDSs and going through the
                    ing the initial determination on          hearings and appeals processes. To
                    whether the claimant is legally dis-      date, these initiatives have not
                    abled or blind. After the DDS makes       resulted in significant improvements
                    the disability determination, it          in the disability claims process.
                    returns the case to the FO for appro-     Accordingly, the Commissioner
                    priate action depending on whether        recently announced a decision on the
                    the claim is allowed or denied. In FY     future of SSA’s Disability Process.
                    2001, there were 2,166,623 initial        The Commissioner’s decision



Issue 7: Management of the Disability Process
SSA OFFICE OF THE INSPECTOR GENERAL                                                  27


included: expanding the Single-Deci-           corrected and the benefits were
sionmaker nationwide, ending the               terminated where appropriate.
requirements for the claimant confer-
ence, evaluating the elimination of       z	   Modify its systems so that
the reconsideration level of the               primary DIG codes for DAA will no
claims process nationwide, making              longer be accepted.
additional improvements to the Hear-
ings Process, and implementing and        We reported that overall SSA has
eDib folder by 2004.                      effectively implemented the recom-
                                          mendations from the prior review to
During this reporting period, we con-     ensure disability benefits are not paid
ducted the following reviews in this      based upon DAA. However, we
area.                                     believe that SSA still needs to
                                          improve its efforts for ensuring that
                                          individual’s records are updated to
Follow-up Review of SSA's                 show the current disabling condition.
Implementation of Drug                    We recommended that, when con-
Addiction and Alcoholism                  ducting the next scheduled CDR, SSA
Provisions of Public Law 104-121          ensure DIG codes are updated to
                                          show the proper diagnosis.
        This audit was a follow-up
        review to an earlier audit        In its response to the report, SSA
        entitled Implementation of        agreed that its systems should be
        Drug Addiction and Alcohol-       updated to show the beneficiaries
ism Provisions of Public Law 104-121.     current disabling conditions.
The objective of this review was to
determine whether SSA implemented
the recommendations included in the       Review of the Social Security
prior audit report.                       Administration's Cost
                                          Effectiveness Measurement
In the prior audit, we determined         System
that SSA did not identify and termi-
nate disability benefits to all benefi-           Our objective was to assess
ciaries for whom drug addiction and               the accuracy and use of SSA’s
alcoholism (DAA) was a contributing               Cost Effectiveness Measure-
factor material to the finding of dis-            ment System (CEMS) data.
ability in accordance with Public Law     We planned to review CEMS data for
(P.L.) 104-121. We estimated that         FY 1999 and 2000, which should
3,190 individuals were incorrectly        have been available by May 2000 and
paid $38.74 million in benefits from      May 2001, respectively. However, as
the date P.L. 104-121 took effect         of June 2001, CEMS data for those
through the date we reviewed the          FYs were not available, and we
cases. Additionally, we estimated         reviewed the latest data available (FY
that 14,420 individuals did not have      1998).
the correct diagnosis codes (DIG)
and/or DAA indicators on their            SSA developed CEMS as a tool to
records showed that DAA was not           measure the operating costs and cost
material to the finding of disability.    effectiveness of each State DDS. SSA
                                          also envisioned that CEMS would pro-
In our prior audit report, we recom-      vide the basis for establishing formal
mended and SSA agreed to:                 cost standards for DDSs.

z	   Review the cases we identified to    We reported that CEMS data is nei-
     ensure that the coding was           ther timely nor widely used by SSA.



                                                  Issue 7: Management of the Disability Process
      28                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                   We also reported that it identified a     ing eligible individuals receive the full
                   discrepancy of approximately $20          retirement benefits due them. If
                   million between the FY 1998 CEMS          earnings information is reported
                   and the Form SSA-4513 data and            incorrectly, or not reported at all,
                   that the unavailability of reconcilia-    SSA cannot ensure that all eligible
                   tion information prevented us from        individuals are receiving the correct
                   determining whether this discrepancy      payment amounts.
                   was valid.
                                                             In addition, SSA’s disability programs
                   We concluded that CEMS has not            under OASDI and SSI depend on this
                   achieved its intended purpose             earnings information to determine
                   because SSA was unsuccessful in           whether an individual is eligible for
                   developing formal cost standards or       benefits and the size of the disability
                   methodologies for determining the         payment. Finally, SSA spends scarce
                   cost effectiveness of each DDS. We        resources trying to correct the earn-
                   also found that monetary differences      ings data when incorrect information
                   exist between CEMS and Form               is reported.
                   SSA-4513 data and that unautho-
                   rized users can access CEMS data.         The Earnings Suspense File (ESF) pri-
                   We questioned whether the funds           marily consists of reported earnings
                   spent by SSA to maintain CEMS and         that are put into suspense because
                   the time expended by the DDSs on          the name/SSN combination does not
                   the labor-intensive input of CEMS         match validation criteria within SSA’s
                   data are justified.                       systems. Although SSA is able to
                                                             post approximately 99 percent of all
                   We recommended that SSA perform           reported earnings to individuals’
                   a cost-benefit analysis to determine      earnings records, those earnings that
                   whether CEMS should continue based        cannot be matched continue to accu-
                   on a comparison of CEMS mainte-           mulate in the ESF. Between 1937 and
                   nance, oversight, and input costs to      1999, the ESF grew to about $327
                   the use of CEMS data. If the              billion in wages, representing approx-
                   cost-benefit analysis supports the        imately 227 million wage items.
                   continuation of CEMS, we made a
                   number of recommendations to              Each year, SSA receives about 21
                   address the accuracy and use of           million wage items that have an
                   CEMS data.                                invalid name and SSN combination,
                                                             and, through extensive computer
                   In its response to the draft report,      matches and manual efforts, this
                   SSA generally agreed with the find-       number is reduced to about
                   ings and has taken action to termi-       6.5 million items annually. Although
                   nate CEMS.                                SSA attempts to further resolve
                                                             these invalid wage items, the major-
                   Issue 8: Integrity of the                 ity lacks sufficient detail to be
                                                             matched to earners’ records.
                   Earnings Reporting
                   Process                                   Another concern is the additional
                                                             administrative cost required to match
                   Earnings information reported to SSA      data to individual records to correct
                   by employers and self-employed indi-      invalid earnings information. SSA has
                   viduals impacts the level of benefits     previously reported that it can cost
                   provided to individuals under both        as much as $300 to correct an earn-
                   the OASDI and SSI programs. The           ings item once the item has gone into
                   integrity of SSA’s process for posting    suspense, compared to a cost of only
                   workers’ earnings is critical to ensur-   50 cents if the earnings had been



Issue 8: Integrity of the Earnings Reporting Process
SSA OFFICE OF THE INSPECTOR GENERAL                                                           29


reported correctly. While this number    procedures for verification of eligible
is currently being revised, it demon-    employees.
strates how scarce resources are
being consumed when the Agency           Ensuring the integrity of earnings in
has to resolve wage reports with         the Master Earnings File (MEF), the
invalid name and SSN combinations.       repository of earnings related to spe-
                                         cific individual accounts, is also a crit-
While SSA has limited control over       ical audit area. An earlier OIG audit
the factors that cause the volume of     found that SSA did not maintain suf-
errorneous wage reports submitted        ficient controls over the wage report-
each year, the Agency still has some     ing process to ensure employers
ability to improve the process, SSA      were submitting quality earnings
can improve wage reporting by:           data. The audit noted that 285
                                         employers submitted erroneous wage
z	   Educating employers on reporting    reports in which over 50 percent of
     criteria.                           their wages were in error 3 years in a
                                         row without SSA taking any action,
z	   Identifying and resolving           even though more than $8.5 million
     employer reporting problems.        in penalties could have been
                                         assessed by the IRS. Another 3,428
z	   Encouraging greater use of the      employers submitted similar errone-
     Agency’s SSN verification           ous wage reports in consecutive
     programs to ensure employers        years.
     submit wage reports with valid
     name and SSN combinations.          SSA has developed other processes,
                                                                                      The integrity of
                                         which inform individuals about their
In a recent OIG report, we noted how                                                  SSA’s process for
                                         earnings, while also validating the
one employer could have prevented                                                     posting workers’
                                         earnings data in the MEF. In recent
$10.2 million in wages from going                                                     earnings is
                                         years, SSA started mailing Social
into the ESF, if the employer had                                                     critical to
                                         Security statements to individuals
used SSA’s Employee Verification                                                      ensuring eligible
                                         who had earnings and were age 25 or
Service.                                                                              individuals
                                         older. In FY 2001, SSA mailed over
                                                                                      receive the full
                                         137 million of these statements, of
In addition, wage reporting accuracy                                                  benefits due
                                         which, over 7 million were returned
thresholds can identify problems with                                                 them.
                                         as undeliverable. If an individual con-
wage reports and attempt corrections
                                         tacts SSA about missing earnings,
with the employer before the wages
                                         these amounts are either reinstated
go into the ESF. Finally, a GPRA mea-
                                         from the ESF to the MEF, if they are
sure on the ESF may indicate to man-
                                         currently in suspense, or added as
agement over time whether the
                                         new earnings to the MEF. This pro-
problem is alleviated by ongoing
                                         cess can improve the integrity of
Agency efforts.
                                         SSA’s earnings data.
SSA also needs to improve coordina-
                                         Over the past few years, we have
tion with other Federal agencies hav-
                                         noticed some problems in the integ-
ing separate, yet related mandates.
                                         rity of the Earnings Reporting Process
For example, SSA’s ability to improve
                                         issue and we are currently in the pro-
wage reporting is related to the
                                         cess of performing audits in this
Internal Revenue Service’s (IRS) fail-
                                         area.
ure to sanction employers for submit-
ting invalid wage data, as well as the
                                         During this period, we provided SSA
Immigration and Naturalization Ser-
                                         management with comments on the
vice’s (INS) complicated employer
                                         proposed Social Security Number
                                         Verification Service (SSNVS). This



                                         Issue 8: Integrity of the Earnings Reporting Process
        30                           SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    online service is expected to reduce        SSNs today provides a tempting
                    the response time currently experi-         motive for unscrupulous individuals
The importance      enced by registered employers and           to fraudulently acquire an SSN and
placed on SSNs      third-party users who submit SSN            use it for illegal purposes. Recently,
provides a          verification requests via paper, tape,      we witnessed how the SSN facilitated
tempting motive     diskette, or magnetic media. While          the terrorists’ ability to integrate into
for unscrupulous    we believe the availability of SSNVS        our society with relative anonymity.
individuals to      should attract new users to SSA’s           The ramifications of this type of
fraudulently        verification services and improve the       activity can be severe and far-reach-
acquire an SSN      accuracy of reported wages, we also         ing. Consequently, curbing SSN mis-
and use it for      want to ensure SSA is fully cognizant       use remains a top OIG priority.
illegal purposes.   of the risks related to the proposed
                    service. Specifically, we recom-            Originally, the SSN’s sole purpose
                    mended additional controls over the         was to provide a method for SSA to
                    planned service to enhance the              accurately record each U.S. worker’s
                    Agency’s management of SSNVS                earnings. Despite this narrowly
                    while minimizing the chances for mis-       drawn purpose, use of the SSN as a
                    use.                                        general identifier in record systems
                                                                eventually grew. The SSN has been
                    Some of our recommendations                 adopted for numerous other pur-
                    included:                                   poses so that, today, it is the single
                                                                most widely used identifier for Fed-
                    z	   Ensuring the applicant is an           eral and State governments, as well
                         authorized representative of the       as the private sector.
                         employer.
                                                                The public’s growing concern with
                    z	   Collecting sufficient user             SSN misuse and identity theft is
                         information for monitoring.            reflected in the large number of alle-
                                                                gations that we receive annually.
                    z    Considering all security options.      Allegations involving SSN misuse
                                                                increased from approximately 11,000
                    We also commented on SSA’s                  in FY 1998 to over 46,000 during
                    planned SSNVS pilot and evaluation          FY 2000. In FY 2001, of the 115,103
                    process. Our comments related to:           allegations processed, over 65,000
                                                                allegations, almost 57 percent
                    z    The selection of pilot participants.   involved the misuse of an SSN. Con-
                                                                tinued growth of these numbers is
Fake IDs, such as   z	   Necessary edits and alerts to          only limited by our capacity to
these, often look        ensure proper usage of the
very authentic.
                                                                answer the calls. We believe identity
                         service.                               theft is a significant problem, and it is
                                                                growing. We anticipate the com-
                    z	   Pilot limitations that SSA will need
                                                                plaints will increase unless SSA and
                         to consider when commenting on
                                                                Congress take firm actions to regu-
                         the overall effectiveness of the
                                                                late the use of SSNs.
                         pilot.
                                                                The most common types of identity
                    Issue 9: SSN Misuse                         theft crimes reported are credit card
                    and Privacy Concerns                        fraud; unauthorized attainment of
                    (Identity Theft)                            utility services; bank account and
                                                                loan fraud; use of counterfeit Gov-
                    In FY 2001, SSA issued over                 ernment documents; and fraudulent
                    18 million original and replacement         attainment of Government benefits,
                    SSN cards. The importance placed on         including Social Security and SSI.
                                                                Identity theft crimes affect individu-



Issue 9: SSN Misuse and Privacy Concerns (Identity Theft)
SSA OFFICE OF THE INSPECTOR GENERAL                                                        31


als, Government agencies, and pri-        z	   Programs/operations with the
vate companies, often causing                  most incidences of SSN misuse.
tremendous losses. For example, the
GAO reported that banks lose mil-         z    Cases of employee SSN misuse.
lions each year as a result of credit
card fraud in which individuals mis-      z    Proper use and dissemination of
use SSNs to activate stolen credit             the SSN.
cards.
                                          z    Coordination with other Federal
                                               agencies.
We understand the Agency has a dif-
ficult task in balancing service and      z    Preventative measures to stop
security. To adequately combat SSN             SSN misuse.
misuse, SSA must employ effective
front-end controls in its enumeration     z    Data matching efforts.
process. Likewise, additional tech-
niques, such as data mining, biomet-      Among the more significant sugges-
rics, and enhanced systems controls       tions to improve the integrity of the
are critical in the fight against SSN     SSN, we reiterated recommendations
misuse.                                   from prior audits that the Agency
                                          either disagreed with or had not yet
The additional benefit of law enforce-    implemented. The prior recommen-
ment agencies pooling their investi-      dations highlighted in our report
gative resources has resulted in our      address the need for verification of
being able to investigate more pro-       evidentiary documents presented
gram cases and SSN misuse cases.          with SSN applications, enhanced con-
                                          trols within SSA’s Modernized Enu-
We have conducted the following           meration System (MES), limitations
investigations and audits in this area.   on the number of replacement SSN
                                          cards obtained, and training and
                                          expansion of quality reviews for SSA
Congressional Response Report:
                                          employees.
SSN Misuse - A Challenge For SSA
                                                                                   Fraudulent
                                          We also suggested methods that SSA       documents are
        On August 6, 2001, Senator
                                          can use to improve how it provides       often mistaken for
        Charles Grassley requested
                                          information to the public on the         authentic
        that the Agency and our                                                    documents.
                                          proper use and dissemination of the
        office provide separate
                                          SSN. Vital information can be distrib-
assessments of SSA programs and
                                          uted via the web site, pamphlets,
operations, focusing on the goal of
                                          workshops, town hall meetings and
minimizing opportunities for SSN
                                          public service announcements to
misuse at its administrative core.
                                          educate the public about the poten-
                                          tial dangers of sharing one’s SSN
In response to Senator Grassley’s
                                          with non-government and suspicious
request, we provided our insights and
                                          entities. In addition to educating the
conclusions regarding the following
                                          public at large, SSA could distribute
subjects.
                                          informational literature to commer-
                                          cial, governmental and non-profit
z	   Assignment and issuance of
                                          entities outlining the authorized uses
     SSNs.
                                          of the SSN and the organizations’
z    Undeliverable SSN cards.             responsibilities for protecting this
                                          sensitive personal information.
z	   Earnings records and the
     Earnings Suspense File.



                                   Issue 9: SSN Misuse and Privacy Concerns (Identity Theft)
      32                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                  We concluded that, with the Internet       Despite this nonwork legend, in Tax
                  as a catalyst, SSN misuse and iden-        Years 1998 through 2000, SSA cred-
                  tity fraud have soared, partially as a     ited earnings of $36.1 million to
                  result of the ease in which individuals    2,058 nonwork SSNs issued in Utah.
                  can access personal information and        SSA not only credits earnings, it pays
                  false documents on-line. We credit         OASDI benefits based on the earn-
                  SSA with having made strides in            ings obtained under a nonwork SSN
                  improving systems and processes in         as long as the worker has met all
                  the fight against these abuses, but        benefit eligibility requirements.
                  we believe more could be done.
                                                             We recommended SSA:

                  Work Activity for SSNs Assigned            1.	 Immediately amend its policy to
                  for Nonwork Purposes in the                    prevent the issuance of nonwork
                  State of Utah                                  SSNs to individuals who are not
                                                                 authorized to work and need an
                            Our objective was to review          SSN to obtain a driver’s license
                            the use of SSNs assigned for         and register a vehicle.
                            nonwork purposes by SSA
                                                             2.	 Have FO staff independently ver-
                            FOs in the State of Utah. Spe-
                                                                 ify the need for a nonwork SSN
                  cifically, we wanted to determine
                                                                 and have applications for non-
                  whether these nonwork SSNs were
                                                                 work SSNs and their supporting
                  used to obtain employment.
                                                                 documentation independently
                                                                 reviewed.
                  SSA only issues nonwork SSNs to
                  individuals who are not authorized to      3.	 Work with INS to resolve data
                  work by the Immigration and Natu-              compatibility problems associ-
                  ralization Service (INS) but need an           ated with the nonwork earnings
                  SSN to:                                        file provided by SSA and involve
                                                                 employees familiar with the prob-
                  z    Obtain a State driver’s license.          lem.

                  z	   Receive other Federally funded        4. Work to establish an agreement
With the               benefits or services.                    with the OCSE, whereby SSA sub-
Internet as a                                                   mits nonwork SSN records to
catalyst, SSN     z	   Receive State or local general           OCSE each quarter, and OCSE
misuse and             assistance benefits.                     associates quarterly earnings with
identity fraud                                                  the records before returning them
have soared,      z	   Receive restricted tax, banking,         to SSA.
partially as a         and military benefits.                5.	 Use the quarterly wage informa-
result of the                                                    tion or other suitable methods to
ease in which     To receive a nonwork SSN, applicants           prevent the assignment of
individuals can   must provide SSA valid INS docu-               replacement SSN cards when
access personal   mentation and must support their               there is evidence of illegal
information and   need for a nonwork SSN. SSA FO                 employment and to advise
false documents   employees review the documentation             employers of nonwork status
on-line.          for authenticity, approve the SSN              when verifying employee SSNs.
                  application, and enter the applicant
                                                             6.	 Match the quarterly nonwork
                  information into the SSA enumera-
                                                                 earnings file with the ESF to iden-
                  tion system. The enumeration sys-
                                                                 tify and report to INS employers
                  tem processes the information, and a
                                                                 who consistently hire people who
                  nonwork SSN card (annotated with a
                                                                 are not authorized employment
                  nonwork legend) is issued to the
                                                                 and individuals who use, for
                  applicant.



Issue 9: SSN Misuse and Privacy Concerns (Identity Theft)
SSA OFFICE OF THE INSPECTOR GENERAL                                                         33


   employment, nonwork SSNs and                    Based on information received
   false identities.                               from the SSA’s Springfield,
                                                   Massachusetts office, indicat-
SSA agreed, entirely or in part, with              ing that a Social Security dis-
our recommendations. Effective            ability beneficiary had fraudulently
March 1, 2002, SSA no longer issues       obtained an SSN, our Boston Field
an SSN solely for the purpose of          Division investigated a man who con-
securing a State driver’s license. Fur-   cealed his employment from SSA for
thermore, SSA agreed to indepen-          8 years. He fraudulently received
dently verify nonwork SSN requests        $162,000 in SSA benefits. He also
with the requiring Government agen-       fraudulently obtained an SSN for a
cies. Also, SSA is preparing to cap-      non-existent personal care attendant
ture information that will help resolve   in order to defraud the Medicaid pro-
data compatibility problems with INS.     gram out of $102,021. He also ille-
                                          gally received $29,130 in Federal
In addition, the Agency will tighten      rental subsidies under the Depart-
controls for issuing replacement SSN      ment of Housing and Urban Develop-
cards to non-citizens who are not         ment’s Section 8 Housing Assistance
authorized employment, and will           Payments Program and evaded Fed-
search for ways to help INS monitor       eral income taxes. He was incarcer-
employment authorization. Finally,        ated and ordered to pay $293,151 in
SSA finds merit or value in our rec-      restitution and a $50,000 fine.
ommendations and shares informa-
                                                                                     Agents across the
tion with OCSE and INS to identify                Based on referral from SSA’s       nation collaborate
both people who work illegally and                Ocala, Florida office, our         on many
the employers who hire them. The                  Atlanta Field Division con-        investigations.
Agency will address these recom-                  ducted an investigation of a
mendations once it has assessed the       Social Security disability beneficiary
effect of the enumeration improve-        and his wife. The investigation estab-
ment activities it has initiated with     lished that in 1969 the man began
INS.                                      receiving disability benefits under his
                                          true name and SSN. In 1972, he
The Agency did not fully agree with       obtained another SSN under the
Recommendation 2. SSA believes            name of a deceased infant. In 1973,
that verifying the need for a nonwork     he began working under the
SSN with the Government agency            deceased infant’s name and false
requiring it would add sufficient         SSN while continuing to receive dis-
improvement to the nonwork SSN            ability benefits under his own name.
enumeration process.
                                          In 1998, he applied for old-age bene-
SSN Misuse Case Highlights                fits under the assumed name, while
                                          still receiving benefits under his own
         Based on a referral from         name. His wife also applied for bene-
         SSA’s Odessa, Texas office,      fits on the assumed identity account.
         our Dallas Field Division        Both the man and his wife were
         investigated a man who           incarcerated and the man was
worked under his wife’s SSN since         ordered to pay $209,177 restitution
1983 while collecting Social Security     to SSA.
disability benefits. Our investigators
interviewed employees of the com-                Our Atlanta Field Division, in
pany who confirmed that the man’s                cooperation with INS and FBI,
wife never worked for the company.               conducted an investigation of
He was incarcerated and ordered to               a former SSA employee and
pay $270,556 in restitution to SSA.       two co-conspirators who were



                                    Issue 9: SSN Misuse and Privacy Concerns (Identity Theft)
       34                          SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    involved in a money laundering and         that representative payees did not
                    fraudulent SSN application scheme.         always meet their responsibilities to
                    Further investigation determined that      the beneficiaries they served. We
                    the former employee was instrumen-         identified deficiencies with the finan-
                    tal in the issuance of approximately       cial management of, and accounting
                    160 SSNs to illegal aliens who were        for, benefit receipts and disburse-
                    customers of one of the co-conspira-       ments; vulnerabilities in the safe-
                    tors. The former SSA employee was          guarding of beneficiary payments;
                    incarcerated and fined $10,000. The        poor monitoring and reporting to SSA
                    co-conspirators received probation         of changes in beneficiary circum-
                    and one was ordered to pay                 stances; and inappropriate handling
                    $1,716,259 restitution to individual       of beneficiary-conserved funds.
                    victims.
                                                               In FY 2001, SSA established a Repre-
                    Issue 10: Integrity of                     sentative Payee Task Force to per-
                                                               form a comprehensive review of the
                    the Representative                         features and vulnerabilities of the
                    Payee Process                              current program. The Task Force is
                                                               comprised of three subgroups con-
                    When SSA determines a beneficiary          centrating on:
                    cannot manage his/her benefits, SSA
                    selects a representative payee. The        z    Monitoring representative payees.
                    representative payee must use the
                    payments for the beneficiary’s bene-       z	   Systems support for the
                    fit. There are about 5 million repre-           Representative Payee Program.
                    sentative payees who manage
                    approximately $31 billion in annual        z	   Bonding and licensing of
                    benefit payments for 7 million benefi-          representative payees.
                    ciaries. While representative payees
                    provide a valuable service for benefi-     Of the approximately 1,700 repre-
It is imperative    ciaries, SSA must provide appropri-        sentative payees that are covered by
that SSA have       ate safeguards to ensure they meet         the Agency’s triennial on-site
appropriate         their responsibilities to the beneficia-   reviews, SSA has performed 540 of
safeguards to       ries they serve.                           these reviews over the past year. As
ensure that                                                    of August 2001, SSA had verified that
representative      Since 1996, we have made several           693 of its non-governmental
payees meet         recommendations to improve SSA’s           fee-for-service representative pay-
their               Representative Payee Program.              ees continue to have the required
responsibilities.   These recommendations addressed            bond or license. A total of 26 reviews
                    many of the areas SSA is now work-         were completed (over the last year)
                    ing to correct. For example, we rec-       based on certain “trigger” events. In
                    ommended that SSA more                     addition, SSA has contracted with an
                    thoroughly screen potential repre-         accounting firm to conduct financial
                    sentative payees, change the focus of      reviews of 60 representative payees.
                    its Representative Payee Program to
                    increase the monitoring of represen-       However, much is left for SSA to do
                    tative payees, and determine why           to address the vulnerabilities and
                    representative payees do not com-          weaknesses in the Representative
                    plete and return Representative            Payee Program.
                    Payee Reports.
                                                               Our auditors and investigators con-
                    In FY 2001, we performed six finan-        ducted the following work in this
                    cial-related audits of representative      area.
                    payees. Our audit results showed



Issue 10: Integrity of the Representative Payee Process
SSA OFFICE OF THE INSPECTOR GENERAL                                                    35


                                             tative payee consisted of funds that
Financial-Related Audit of an                PAL was entitled to as monthly
Individual Representative Payee              room-and-board fees.
for the SSA in Region VI
                                             PAL’s records reflected that
        Our objectives were to deter-        92 percent of the SSA benefits
        mine whether the representa-         received represented payment for
        tive payee had effective             monthly room-and-board fees and
        safeguards over the receipt          the remaining 8 percent belonged to
and disbursement of Social Security          the beneficiaries and recipients. The
benefits and ensured Social Security         representative payee told us that
benefits were used and accounted for         payments exceeding the
in accordance with SSA’s policies and        room-and-board fees were given to
procedures.                                  the beneficiaries either as cash or
                                             personal items; however, the repre-
We selected this representative              sentative payee did not have ade-
payee from an SSA generated list of          quate documentation to support
“Individual” representative payees           disbursement of these funds. Further,
with 20 or more beneficiaries or             the representative payee did not use
recipients in their care. All of the rep-    separate bank accounts for individual
resentative payees’ beneficiaries and        funds, or have procedures in place
recipients were residents of Prague          that would allow her to provide bene-
Assisted Living Center (PAL). While          ficiaries and recipients an up-to-date
performing our audit, we determined          reporting of how their funds were
that the representative payee oper-          spent.
ated PAL as an incorporated entity,
and, according to SSA’s records, PAL         We recommended that SSA:
also served as the representative
payee for some of its residents.             1.	 Work with the representative
                                                 payee to determine the appropri-
Accordingly, we included in our                  ate level of documentation to
review all 51 beneficiaries for whom             account for and report on the
this individual served as representa-            receipt and disbursement of SSA
tive payee, either as an individual or           benefits in accordance with SSA’s
as the incorporated entity—PAL.                  policies and procedures.
According to the representative
                                             2.	 Ensure that multiple identities are
payee, all PAL residents have some
                                                 not used for this representative
type of mental disorder and PAL
                                                 payee in RPS.
charged its residents a monthly fee
for room-and-board.
                                             In response to our draft report, SSA
                                             agreed with both of our recommen-
In general, it appears that the repre-
                                             dations.
sentative payee met its responsibili-
ties for ensuring the beneficiaries and
                                             Representative Payee Fraud Case
recipients’ needs were met. However,
                                             Highlights
the representative payee lacked doc-
umentation to fully account for the
                                                    Our Atlanta Field Division
receipt and disbursement of SSA
                                                    investigated a woman who
benefits in accordance with SSA’s
                                                    was receiving Survivor bene-
policies and procedures. The lack of
                                                    fits for herself and serving as
documentation was mitigated by the
                                             the representative payee for her
fact that the majority of the benefit
                                             daughter. Our investigation revealed
payments received by the represen-




                                          Issue 10: Integrity of the Representative Payee Process
        36                         SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


                    that although her daughter left her       for one of her two daughters. Our
                    custody in November 1994, the             investigation determined that the
                    woman continued to receive pay-           woman knowingly and willfully used
                    ments. She was incarcerated and           her daughter’s SSI benefits for her
                    ordered to pay $95,172 restitution to     own use. Our investigation also
                    SSA.                                      revealed that since the initial applica-
                                                              tion for benefits, the woman claimed
                             Based on a referral from         her daughters lived with her, when in
                             SSA’s Boston, Massachusetts      fact, both daughters were being
                             office, our Boston Field Divi-   raised (and had been since birth) by
                             sion investigated a Social       another woman. She was incarcer-
                    Security beneficiary who died in          ated and ordered to pay $59,673 res-
                    1979. Our investigation determined        titution to SSA.
                    that the woman’s benefits continued
                    to be paid through August 2000 to                 Our Los Angeles Field Division
                    her grandson who was her represen-                investigated a grandmother
                    tative payee. Her grandson admitted               who received Social Security
                    to his fraudulent use of the benefits             benefits for herself and for
                    for over 21 years totaling $135,562.      her grandson who was supposedly in
                    He was incarcerated and ordered to        her care and custody. Our investiga-
                    pay $135,562 restitution to SSA.          tion revealed that the child had actu-
                                                              ally been adopted and was never in
                           Our Dallas Field Division          his grandmother’s care. She was
                           investigated a woman who           incarcerated and ordered to pay
                           was the representative payee       $117,632 restitution to SSA.




                                        A Special Thank You
The IG reviews
audit reports for
information to be
included in con-
                        We would like to thank our entire Office of the Inspector
gressional testi-      General staff for their outstanding efforts and contributions,
mony.                   without which this report would not have been possible.




Issue 10: Integrity of the Representative Payee Process
SSA OFFICE OF THE INSPECTOR GENERAL       37




                            Appendices

38   SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02
SSA OFFICE OF THE INSPECTOR GENERAL                                                                                            39



Appendix A
RESOLVING AUDIT RECOMMENDATIONS
The following chart summarizes Social Security Administration’s (SSA) responses to Office of the
Inspector General’s recommendations for the recovery or redirection of questioned and unsupported
costs. Questioned costs are those costs that are challenged because of a violation of law, regulation,
etc. Unsupported costs are those costs that are questioned because they are not justified by
adequate documentation. This information is provided in accordance with the Supplemental
Appropriation and Recession Act of 1980 (Public Law 96-304) and the Inspector General Act of
1978, as amended.

                            Reports With Questioned Costs for the Reporting Period
                                   October 1, 2001 Through March 31, 2002

                                                    Number                 Value Questioned                   Value Unsupported

 A. For which no management decision                                 5a                      $1,819,859                        $1,692,988
    had been made by the
    commencement of the reporting
    period.

 B. Which were issued during the                                     7b                      $4,793,172                        $4,393,955
    reporting period.

                      Subtotal (A+B)                                 12                      $6,613,031                        $6,086,943

 Less:

 C. For which a management decision                                   5c                     $1,859,901                                     $0
    was made during the reporting
    period:

    i. Dollar value of disallowed costs.                             4d                        $913,932                                     $0

    ii. Dollar value of costs not                                                              $945,969                                     $0
      disallowed.                                                     1e

 D. For which no management decision                                  8f                     $4,753,130                        $6,086,943
    had been made by the end of the
    reporting period.

   a.	 Costs Claimed by American Institutes for Research on the SSA's Contract Number 600-97-32018 (A-15-00-20034, 8/14/00);
       Single Audit of the State of Florida for the Fiscal Year (FY) Ended June 30, 2000 (A-77-01-00012, 8/24/01); Single Audit of the
       State of West Virginia for the FY Ended June 30, 2000 (A-77-01-00013, 8/29/01); Single Audit of the Commonwealth of Puerto
       Rico, Department of the Family for the FY Ended June 30, 1997 (A-77-01-00014, 8/30/01); and Financial-Related Audit of
       Outreach, Inc. - A Fee-for-Service Representative Payee for SSA (A-09-00-10068, 9/18/01).
   b.    See Reports with Questioned Costs on page 49 of this report.

   c.     SSA's Management of Its Federal Employees' Compensation Act (FECA) Program (A-13-99-91003,10/25/01) contained dollars
         that were disallowed and dollars not disallowed.
   d.	 Costs Claimed by American Institutes for Research on the Social Security Administration's Contract Number 600-97-32018 (A-
       15-00-20034, 8/14/00); Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for SSA (A-09-00-
       10068, 9/18/01); SSA's Management of Its FECA Program (A-13-99-91003,10/25/01); Controls Over SSA’s Processing of Death
       Records from the Department of Veterans Affairs (A-01-01-21038, 2/27/02).

   e.    SSA's Management of Its FECA Program (A-13-99-91003, 10/25/01).

   f.     Single Audit of the State of Florida for the FY Ended June 30, 2000 (A-77-01-00012, 8/24/01); Single Audit of the State of West
         Virginia for the FY Ended June 30, 2000 (A-77-01-00013, 8/29/01); Single Audit of the Commonwealth of Puerto Rico,
         Department of the Family for the FY Ended June 30, 1997 (A-77-01-00014, 8/30/01); Single Audit of the State of Michigan,
         Family Independence Agency for the 2-Year Period Ended September 30, 2000 (A-77-02-00003, 11/20/01); Single Audit of the
         Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1998 (A-77-02-00006, 1/29/02); Single Audit
         of the Commonwealth of Puerto Rico, Department of the Family for the FY Ended June 30, 1999 (A-77-02-00007, 1/30/02);
         Single Audit of the State of New York for the FY Ended March 31, 2000 (A-77-02-00008, 2/25/02); Review of Maximus Contract
         Numbers 600-94-10784 and 600-95-22666 (Limited Distribution, A-15-00-30015, 3/8/02).




                                                                                                                            Appendix A
        40                                       SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


The following charts summarize SSA’s response to our recommendations that funds be put to better
use through cost avoidances, budget savings, etc.

 Reports With Recommendations That Funds Be Put to Better Use for the Reporting Period
                     October 1, 2001 Through March 31, 2002

                                                                                                      Number         Dollar Value

 A. For which no management decision had been made by the commencement of the                                  7a          $18,147,920
    reporting period.

 B. Which were issued during the reporting period.                                                             1b              $105,995

                              Subtotal (A+B)                                                                    8          $18,253,915

 C. For which a management decision was made during the reporting period.

    i. Dollar value of recommendations that were agreed to by management.

                   (a) Based on proposed management action.                                                    4c            $2,267,233

                   (b) Based on proposed legislative action.                                                    0                         $0

                              Subtotal (a+b)                                                                    4            $2,267,233

    ii. Dollar value of costs that were not agreed to by management.                                           5d          $15,986,682

                              Subtotal (i+ii)                                                                  9e          $18,253,915

 D. For which no management decision had been made by the end of the reporting                                  0                         $0
    period.

   a.	 Single Audit of the Illinois Department of Human Services for the 2-Year Period Ended June 30, 1999 (A-77-01-00009, 7/17/01);
       Deeming of Income to Establish Initial Eligibility for Supplemental Security Income (SSI) Recipients (A-05-99-21005, 9/5/01);
       Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for SSA (A-09-00-10068, 9/18/01); Fees Paid
       by State Disability Determination Services (DDS) to Purchase Consultative Examinations (CE) (A-07-99-21004, 9/20/01);
       Financial-Related Audit of the Baltimore City Department of Social Services - An Organizational Representative Payee for SSA (A-
       13-00-10066, 9/25/01); Management Advisory Report: Review of Service Industry Employer with Wage Reporting Problems (A-
       03-00-10022, 9/27/01); Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01).

   b. See Reports with Funds Put to Better Use on page 49 of this report.
   c.	 Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for SSA (A-09-00-10068, 9/18/01); Financial-
       Related Audit of the Baltimore City Department of Social Services - An Organizational Representative Payee for SSA (A-13-00-
       10066, 9/25/01); Audit of Enumeration at Birth Program (A-08-00-10047, 9/27/01); Review of SSA’s Cost Effectiveness
       Measurement System (A-07-00-10028, 2/11/02).

   d.	 Single Audit of the Illinois Department of Human Services for the 2-Year Period Ended June 30, 1999 (A-77-01-00009, 7/17/01);
       Deeming of Income to Establish Initial Eligibility for SSI Recipients (A-05-99-21005, 9/5/01); Fees Paid by State Disability
       Determination Services to Purchase CEs (A-07-99-21004, 9/20/01); Financial-Related Audit of the Baltimore City Department of
       Social Services - An Organizational Representative Payee for SSA (A-13-00-10066, 9/25/01); Management Advisory Report:
       Review of Service Industry Employer with Wage Reporting Problems (A-03-00-10022, 9/27/01).
   e. SSA agrees with a portion of the monies recommended in Financial-Related Audit of the Baltimore City Department of Social
      Services - An Organizational Representative Payee for SSA (A-13-00-10066, 9/25/01).




Appendix A
SSA OFFICE OF THE INSPECTOR GENERAL                                                                        41



Appendix B
REPORTS ISSUED

                  Reports With Non-Monetary Findings Reports Issued from
                          October 1, 2001 through March 31, 2002

Date Issued   Title of Report                                                                         Report Number

10/2/01       Performance Measure Review: Reliability of the Data Used to Measure the Timely          A-02-99-11001
                Processing of Disability Insurance Claims

10/3/01       Congressional Response Report: Social Security Number Misuse: A Challenge For           A-08-02-22030
                the Social Security Administration

10/11/01      Single Audit of the State of Georgia for the Fiscal Year Ended June 30, 2000            A-77-02-00001

10/22/01      Assessment of the Electronic Disability Project                                         A-14-01-11044

10/24/01      Financial-Related Audit of an Individual Representative Payee for the Social Security   A-06-00-10063
                 Administration in Region VI

10/25/01      Congressional Response Report: Terrorist Misuse of Social Security Numbers              A-08-02-32041

10/31/01      Single Audit of the State of Alabama for the Fiscal Year Ended September 30, 2000       A-77-02-00002

11/6/01       Performance Measure Review: Reliability of the Data Used to Measure Disability          A-02-00-10017
                Claims Processing

11/6/01       Congressional Response Report: Social Security Administration's SmartPay Program        A-13-02-22059

11/14/01      Congressional Response Report: Select Social Security Administration Stewardship        A-08-02-22028
                Efforts and Reported Savings

11/26/01      Disability Determination Services' Budget Execution and Reporting of Limitation on      A-15-99-52001
                Administrative Expenses Funds

11/29/01      Single Audit of the State of Oklahoma for the Fiscal Year Ended June 30, 2000           A-77-02-00004

12/7/01       Inspector General Statement on the Social Security Administration's Major               A-02-02-12054
                Management Challenges

12/11/01      Audit of the Fiscal Years 2001 and 2000 Financial Statements of the Social Security     A-15-01-11036
                Administration and the Results of the Office of the Inspector General’s Review
                Thereof

12/17/01      Follow-up Review of the Social Security Administration's Implementation of Drug         A-01-01-11029
                Addiction and Alcoholism Provisions of Public Law 104-121

12/21/01      Single Audit of the State of Rhode Island for the Fiscal Year Ended June 30, 2000       A-77-02-00005

1/14/02       Disclosure of Personal Beneficiary Information to the Public (Limited Distribution)     A-01-01-01018

1/14/02       Performance Measure Review: Reliability of the Data Used to Measure Anti-Fraud          A-02-01-11013
                Performance

2/7/02        Performance Measure Review: Reliability of the Data Used to Measure Public              A-02-01-11015
                Knowledge of the Social Security Administration

2/7/02        Status of the Social Security Administration's Implementation of Fiscal Year 1999
                Management Letter Recommendations                                                     A-15-00-30056

2/27/02       Single Audit of the State of Minnesota for the Fiscal Year Ended June 30, 2000          A-77-02-00009

3/8/02        Performance Measure Review: Reliability of the Data Used to Measure the Quality of      A-02-01-11011
                the Social Security Administration's Research




                                                                                                         Appendix B
          42                              SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02



                   Reports With Non-Monetary Findings Reports Issued from
                           October 1, 2001 through March 31, 2002

Date Issued    Title of Report                                                                      Report Number

3/12/02        Single Audit of the State of Wisconsin for the Fiscal Year Ended June 30, 2000       A-77-02-00010

3/18/02        Fact-Finding Report: The Office of Hearings and Appeals' Procedures for Addressing   A-13-02-22062
                 Allegations of Mismanagement (Limited Distribution)

3/26/02        Single Audit for the State of New Mexico, Department of Education for the Fiscal     A-77-02-00011
                  Year Ended June 30, 2000

3/27/02        Performance Measure Review: The Social Security Administration's Transition          A-02-01-11014
                 Planning

3/29/02        Work Activity for Social Security Numbers Assigned for Nonwork Purposes in the       A-14-01-11048
                 State of Utah




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                                   43




                      Reports With Questioned Costs—Reports Issued from
                           October 1, 2001 through March 31, 2002

 Date Issued   Title of Report                                                     Report Number   Dollar Amount

 10/25/01      Social Security Administration's Management of Its Federal          A-13-99-91003       $1,286,969
                 Employees' Compensation Act Program

 11/20/01      Single Audit of the State of Michigan, Family Independence          A-77-02-00003           $9,186
                  Agency for the 2-Year Period Ended September 30, 2000

 1/29/02       Single Audit of the Commonwealth of Puerto Rico, Department of      A-77-02-00006        $170,768
                  the Family for the Fiscal Year Ended June 30, 1998

 1/30/02       Single Audit of the Commonwealth of Puerto Rico, Department of      A-77-02-00007       $5,286,119
                  the Family for the Fiscal Year Ended June 30, 1999

 2/25/02       Single Audit of the State of New York for the Fiscal Year Ended     A-77-02-00008           $4,263
                  March 31, 2000

 2/27/02       Controls Over the Social Security Administration’s Processing of    A-01-01-21038        $467,725
                 Death Records from the Department of Veterans Affairs

 3/8/02        Review of Maximus Contract Numbers 600-94-10784 and 600-            A-15-00-30015       $1,962,097
                 95-22666 (Limited Distribution)

                                                                                   Total:             $9,187,127


                 Reports With Funds Put to Better Use – Reports Issued from
                          October 1, 2001 through March 31, 2002

Date Issued    Title of Report                                                     Report Number   Dollar Amount

2/11/02        Review of the Social Security Administration’s Cost Effectiveness   A-07-00-10028        $105,995
                 Measurement System

                                                                                   Total:              $105,995




                                                                                                    Appendix B
      44     SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02




Appendix B
SSA OFFICE OF THE INSPECTOR GENERAL                                                         45



Appendix C
REPORTING REQUIREMENTS UNDER THE OMNIBUS CONSOLIDATED
APPROPRIATIONS ACT FOR FISCAL YEAR 1997
To meet the requirement of the Omnibus Consolidated Appropriations Act for 1997 (Public Law 104-
208), we are providing in this report requisite data for Fiscal Year (FY) 2002 from the Offices of
Investigations (OI) and Audit (OA).

Office of Investigations
We are reporting $26,366,144 in Social Security Administration (SSA) funds as a result of our OI
activities in this reporting period. These funds are broken down in the table below.

                                             OI Activities

                             1st Quarter                2nd Quarter                Total

 Court Ordered Restitution                 $4,929,214                 $5,370,068            $10,299,282

 Scheduled Recoveries                      $8,130,606                 $7,094,851            $15,225,457

 Fines                                      $197,782                   $168,319               $366,101

 Settlements/Judgments                      $240,992                   $234,312               $475,304

 Totals                                $13,498,594                $12,867,550              $26,366,144


Office of Audit
SSA management has informed the Office of Audit that it has completed implementing
recommendations from four audit reports during this fiscal year valued at over $73 million.

Supplemental Security Income Underpayments Due Deceased Recipients (A-01-97-
52006), May 8, 1998

We recommended that SSA correct the approximately 186,094 SSI records with underpayments
worth an estimated $72.37 million, which are not payable to anyone.

Single Audit of the Illinois Department of Human Services for the 2-Year Period Ended
June 30, 1999 (A-77-01-00009), July 17, 2001

We recommended that SSA remind the Disability Determination Service (DDS) to adhere to the
terms of the Cash Management Improvement Agreement. The implemented recommendation is
valued at $12,994.

Audit of the Administrative Costs Claimed by the Arizona Department of Economic
Security for its DDS Division (A-15-99-51009), August 31, 2001

We recommended that SSA reduce the Fiscal Year 1997 Automated Investment Funds Form
SSA 4513 expenditures by $137,759, which could not be substantiated.




                                                                                           Appendix C
       46                         SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


Financial-Related Audit of Outreach, Inc. - A Fee-for-Service Representative Payee for
SSA (A-09-00-10068), September 18, 2001

We recommended that SSA direct Outreach to amend the title of its checking account to obtain
Federal Deposit Insurance Corporation coverage of $100,000 for each individual. The implemented
recommendation is valued at $565,062.

We also recommended that SSA direct Outreach to take action to ensure: (1) any individuals with
conserved funds in excess of $100,000 are fully protected against loss; and (2) individuals earn
interest on their conserved funds in accordance with SSA policy. The implemented recommendation
is valued at $67,832.




Appendix C
SSA OFFICE OF THE INSPECTOR GENERAL                                                                          47



Appendix D
COLLECTIONS FROM INVESTIGATIONS AND AUDITS
This Fiscal Year (FY) 1999 appropriations language for this office requires us to report additional
information concerning actual cumulative collections and offsets achieved as a result of Inspector
General activities each semiannual period.

Office of Investigations

       Total Restitution Reported by the Department of Justice (DoJ) as Collected for the
                                 Social Security Administration

                 Total Number of
                 Individuals
                                        Court Ordered Restitution
 FY              Assigned Court                                                   Total Restitution Collected by DOJ
                                        for This Period
                 Ordered
                 Restitution

 2000                           441                                 $13,526,283                              $2,232,424

 2001                           670                                 $23,067,026                             $25,565,712

 2002                           327                                 $10,323,037                               $684,310a

 Totals                      1,438                              $46,916,346                                $28,482,446

      a.) Period of 10/01/01 through 12/31/01.




                                                                                                           Appendix D
          48                           SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02




           Funds Received by the Office of Investigations Based on Recovery Actions

                       Total Number of
                                                 Amount Scheduled for          Actual Amount Recovered at
                       Recovery Actions
          FY                                          Recovery                the Close of the Investigation
                           Initiated

 2000                                  445                     $12,722,135                       $4,320,432

 2001                                1,994                     $33,958,212                      $13,804,187

 2002                                1,072                     $15,225,457                       $4,811,479

 Totals                              3,511                   $61,905,804                       $22,936,098




Office of Audit
The following chart summarizes the Agency’s responses to OIG’s recommendations for the recovery
or redirection of questioned and unsupported costs. This information is prepared in coordination
with the Agency’s management officials and is current as of March 31, 2002.

                   Responses to OIG’s Recommendations for the Recovery or
                       Redirection of Questioned and Unsupported Costs

           Number of
                                                              Amount
            Reports    Questioned/                                             Amount
                                          Management        Collected or
   FY        with      Unsupported                                           Written-Off/       Balance
                                          Concurrence           to be
           Questione      Costs                                              Adjustments
                                                             Recovered
            d Costs

 2000              7     $76,991,654          $76,990,499       $119,511           $1,155        $76,870,988

 2001             23    $135,100,905         $131,165,106    $84,844,434         $595,443        $49,721,814

 2002              7      $9,187,127            $808,725        $808,725         $945,969         $7,432,433

 Totals           37    $221,279,686         $208,964,330    $85,772,670       $1,542,567       $134,025,235




Appendix D
SSA OFFICE OF THE INSPECTOR GENERAL                                                       49



Appendix E
SIGNIFICANT MONETARY RECOMMENDATIONS FROM PRIOR FISCAL
YEARS FOR WHICH CORRECTIVE ACTIONS HAVE NOT BEEN
COMPLETED
Old-Age, Survivors and Disability Insurance Benefits Paid to Fugitives (A-01-00-10014),
August 29, 2000

Recommendation: We recommended that the Social Security Administration (SSA) pursue
legislation prohibiting payment of Old-Age, Survivors and Disability Insurance (OASDI) benefits to
fugitives similar to the provisions pertaining to Supplemental Security Income (SSI) payments
under Public Law 104-193.

Valued at: $39,646,884 in funds put to better use, based on legislative action.

Agency Response: SSA agreed that the proposal to suspend OASDI benefits for fugitive felons, as
is currently done in the SSI program, deserves serious consideration. Further, SSA recognized that it
may be viewed as problematic to have different fugitive felon standards for the OASDI and SSI
programs.

Corrective Action: The new Commissioner is evaluating the proposal for further action.

Identification of Fugitives Receiving SSI Payments (A-01-98-61013), August 28, 2000

Recommendation: We recommended that SSA reach agreement with State agencies, which either
do not enter all fugitive felon data into the National Crime Information Center (NCIC) or provide
data to the United Stated Department of Agriculture, to obtain their fugitive information in an
electronic format on a routine basis.

Valued at: $76,418,468 in questioned costs and $29,856,060 in funds put to better use.

Agency Response: SSA agreed with the recommendation.

Corrective Action: SSA has matching agreements with Kentucky, Massachusetts, New Jersey,
South Carolina, Tennessee and Baltimore City. However, SSA has learned that there are more
sources than originally thought which do not submit fugitive felon data to the NCIC. Although it will
take longer than expected, SSA's Regional Fugitive Coordinators and field office staff will continue
setting up new matching agreements with State and local authorities until the task is completed.
The staff resources available to identify reporting entities, negotiate agreements and analyze data
will dictate the amount of time needed to complete all of the required agreements.

Payments to Child Beneficiaries Age 18 or Over Who Were Neither Students Nor Disabled
(A-09-99-63008), May 18, 2000

Recommendation: We recommended that SSA modify its automated system to terminate benefits
to child beneficiaries at age 18 if they are neither under a disability nor a full time student.

Valued at: $435,282 in funds put to better use.

Agency Response: SSA agreed that all child beneficiaries who are neither under a disability nor
full-time students should have their benefits automatically terminated at age 18.



                                                                                         Appendix E
        50                            SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


Corrective Action: SSA plans to more fully automate this workload with implementation of Release
3 of the title II Redesign (T2R). Release 3 will provide the systems capability to: (1) terminate
benefits to child beneficiaries at age 18 if they are neither under a disability nor full-time students;
and (2) automate the processing of many of the complex cases now worked manually, such as those
involving workers' compensation. Some cases will still require manual processing because of the
level of complexity, e.g., triple entitlement. While it is not possible to predict exact numbers of cases
at this point, we anticipate that the majority of this workload will be fully automated with Release 3.

SSA estimates that it will be approximately two and a half years before Release 3 can be
implemented. In the interim, it would not be a cost-effective use of resources to implement any pre-
T2R system modifications that would be obsolete when Release 3 becomes operational.

SSA Incorrectly Paid Attorney Fees on Disability Income Cases When Workers'
Compensation Payments Were Involved (A-04-98-62001), March 8, 2000

Recommendation: We recommended that SSA review the cases in our sample to determine the
proper attorney fee payment and take the required actions on the $18,410 in errors of which
$17,238 were overpayments and $1,172 were underpayments.

Valued at: $33,852,529 in funds put to better use and $17,238 in questioned costs.

Agency Response: SSA agreed. They will review the sample cases and take the appropriate action.

Corrective Action: SSA’s Office of Operations continues to review the one remaining sample case
as they require additional time to resolve.




Appendix E
SSA OFFICE OF THE INSPECTOR GENERAL                                                       51



Appendix F
SIGNIFICANT NONMONETARY RECOMMENDATIONS FROM PRIOR
FISCAL YEARS FOR WHICH CORRECTIVE ACTIONS HAVE NOT BEEN
COMPLETED
Obstacles to Reducing Social Security Number Misuse in the Agriculture Industry
(A-08-99-41004), January 22, 2001

Recommendation: We recommended that the Social Security Administration (SSA) establish goals
and measures, in accordance with the Government and Performance Results Act of 1993, that track
SSA's success in reducing the growth and size of the Earnings Suspense File (ESF).

Agency Response: SSA agrees that a performance measure related to the steps being taken to
limit the growth of the ESF may be appropriate.

Corrective Action: Senior Financial Executive (SFE) staff, working with the Earnings Team, are
exploring a proposed performance indicator that would measure the percentage reduction in name/
Social Security Numbers (SSN) mismatches compared to the total number of Forms W-2 received in
a given tax year. Since the number of Forms W-2 vary each tax year, this would permit a measure to
be based on total W-2s received. SFE will disseminate its proposed performance measure for Agency
concurrence.

Procedures for Verifying Evidentiary Documents Submitted With Original SSN
Applications (A-08-98-41009), September 19, 2000

Recommendation: We recommended that SSA accelerate negotiations with United States
Immigration and Naturalization Service (INS) and the United States Department of State (DOS) to
implement the Enumeration at Entry program. Once implemented, all non-citizens should be
required to obtain their SSNs by applying at one of these Agencies.

Agency Response: SSA agreed that accelerated negotiations are necessary and SSA is committed
to the implementation of the Enumeration at Entry program.

Corrective Action: SSA established a Memorandum of Understanding (MOU) with the INS as of
December 2000. The MOU establishes the provisions under which INS will initially transmit
validation information to SSA for use in assigning SSNs to recently admitted immigrants (i.e.,
permanent resident aliens). It also identifies the long-term goals for INS assistance in meeting our
objective to prevent individuals from using fraudulently obtained documents to obtain valid SSNs.
SSA, INS and DOS have discussed and finalized the technical aspects of the data transfer. DOS is
making the necessary changes electronically to provide the enumeration data to INS. The systems
release is scheduled for June 2002. INS started the systems changes needed to transmit the
enumeration data to SSA. SSA has started work to make the changes to accept the enumerations
data from INS and to use that data to assign SSNs. DOS, INS, and SSA expect to have the needed
systems changes in place by May 2002.

Recommendation: We recommended that SSA continue efforts and establish an implementation
date for planned system controls that will interrupt SSN assignment when multiple cards are mailed
to common addresses not previously determined to be legitimate recipients (for example, charitable
organizations) and/or when parents claim to have had an improbably large number of children.

Agency Response: SSA agreed with the recommendation.



                                                                                        Appendix F
        52                            SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02


Corrective Action: The Agency continues its efforts to implement enhancements in the Modernized
Enumeration System (MES). The General Project Scope Agreement (PSA) for this initiative was
signed in November 2000. It breaks the effort into three separate releases. The PSA for Release 1,
which will handle the “too-many-children” issue, was signed December 2000 and scheduled for
implementation February 2003. Release 2 will interrupt processing for “too-many-cards” to the
same address; and will likely be completed within 18 months of Release 1. Release 3 will expand the
capabilities of the use of the development worksheets implemented in releases 1 and 2. In this final
release, the MES investigative process will be revised to include all alert conditions on the same
feedback/investigative message.

SSA is Pursuing Matching Agreements with New York and Other States using Biometric
Technologies (A-08-98-41007), January 19, 2000

Recommendation: SSA should pursue a matching agreement with New York, so that the Agency
can use the results of the State's biometric technologies to reduce and/or recover any improper
benefit payments.

Agency Comments: SSA agreed with the recommendation.

Corrective Action: The Office of Disclosure Policy (ODP) developed a draft Computer Matching
Privacy Protection Act (CMPPA) agreement and sent it for component comments in June 2001. ODP
met with OIG on January 24, 2002 to discuss the outstanding issues that need to be resolved before
any match is undertaken. There is still a need for a component sponsor, a cost benefit analysis, and
the development of a detailed workplan. Since the information OIG is working from is over 7 years
old, this information needs to be reevaluated. Those discussions will determine whether a model
CMPPA agreement will be presented to SSA's Data Integrity Board to allow for the requested match.

Recommendation: SSA should initiate pilot review to assess the cost efficiency of matching data
with other States that have employed biometrics in their Social Service programs.

Agency Response: SSA agreed with the recommendation.

Corrective Action: The Office of Disclosure Policy is awaiting comments from all SSA components
on a Federal Register notice regarding changes to existing systems of record that are related to this
project. An MOU for applicants between SSA and the New York State Office of Temporary and
Disability Assistance was signed June 2001.

Since signing the MOU the pilot methodology has been revised considerably. The new method of
verifying claimant identity will be non-electronic. The change involves the verification, via
photograph, of the identity of an individual at a consultative examination (CE) requested by the New
York Disability Determination Services. It is anticipated that the study will provide data regarding
the rate of identity match/non-match at the time of the CE and the rate of claimants who have
photographic identification available at the initial interview in the field office. The proposal includes
both title II and title XVI adult applicants. The voluntary nature of the project will be explained and
applicants will be provided the opportunity to offer written statements if they refuse to provide
photographic identification. One product of the pilot evaluation will be recommendations as to
possible next steps in this area, including consideration of biometrics.

Nonresponder Representative Payee Alerts for SSI Recipients (A-09-96-62004),
September 23, 1999

Recommendation: We recommended that SSA develop procedures for employees to redirect
benefit checks to field offices (and require representative payees to provide the accounting forms




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                       53


before releasing the checks) in instances where other attempts to obtain the required forms have
been unsuccessful.

Agency Response: SSA agreed, in part. When a representative payee does not respond or will not
cooperate after repeated attempts to obtain an annual accounting, the field office is required to
consider a change of payee when necessary. When the field office determines that a change of
payee is necessary, they develop for a successor payee. If a payee is not readily available, the
beneficiary is paid directly or placed in suspense status under certain limited circumstances.

Corrective Action: In February 2000, SSA proposed legislation to redirect benefit checks when
representative payees fail to complete the required accounting form as part of a package of
improvements to the payee monitoring process. This change was included in H.R. 4857, as adopted
by the Ways and Means Committee in September 2000. While it was not passed in the previous
congressional session, there is the potential for the proposal to be considered in this congressional
session. SSA has included this legislative change as part of the FY 2003 legislative package that was
sent to the Office of Management and Budget in October 2001.




                                                                                        Appendix F
      54     SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02




Appendix F
SSA OFFICE OF THE INSPECTOR GENERAL                                                 55



Appendix G
GLOSSARY

 Abbreviation       Definition

 ALJ                Administrative Law Judge

 AMD                Allegation Management Division

 CDI                Cooperative Disability Investigations Program

 CDR                Continuing Disability Review

 CE                 Consultative Examination

 CEMS               Cost Effectiveness Measurement System

 CFO                Chief Financial Officers Act of 1990

 CID                Critical Infrastructure Division

 CMP                Civil Monetary Penalty

 CMPPA              Computer Matching and Privacy Protection Act

 DAA                Drug Addiction and Alcoholism

 DDS                (State) Disability Determination Services

 DI                 Disability Insurance

 DIG                Diagnosis Codes

 DMF                Death Master File

 DoJ                Department of Justice

 DoL                Department of Labor

 DoS                Department of State

 ECT                Electronic Crimes Team

 eDib               Electronic Disability

 EF                 Electronic Folder

 ESF                Earnings Suspense File

 EVS                Employee Verification Service

 FECA               Federal Employees’ Compensation Act

 FO                 Field Office

 FY                 Fiscal Year

 GAO                General Accounting Office

 GPRA               Government Performance and Results Act

 HEREIU             Hotel Employees and Restaurant Employees International Union

 H.R.               House of Representatives

 IG                 Inspector General




                                                                                   Appendix G
         56                  SEMIANNUAL REPORT TO CONGRESS 10/01/01-3/31/02



 Abbreviation   Definition

 INS            Immigration and Naturalization Service

 IRS            Internal Revenue Service

 MEF            Master Earnings File

 MES            Modernized Enumeration System

 MOU            Memorandum of Understanding

 NCIC           National Crime Information Center

 OA             Office of Audit

 OASDI          Old-Age, Survivors and Disability Insurance

 OASI           Old-Age and Survivors Insurance

 OCIG           Office of the Counsel to the Inspector General

 OCSE           Office of Child Support Enforcement

 ODP            Office of Disclosure Policy

 OEO            Office of Executive Operations

 OHA            Office of Hearings and Appeals

 OI             Office of Investigations

 OIG            Office of the Inspector General

 OMB            Office of Management and Budget

 OPM            Office of Personnel Management

 PAL            Prague Assisted Living (Center)

 PD             Police Department

 PDD            Presidential Decision Directive

 PIN            Personal Identification Number

 P.L.           Public Law

 PwC            PricewaterhouseCoopers LLP

 POMS           Program Operations Manual System

 PSA            (The General) Project Scope Agreement

 RPR            Representative Payee Reports

 RPS            Representative Payee System

 SFE            Senior Financial Executive

 SSA            Social Security Administration

 SSI            Supplemental Security Income

 SSN            Social Security Number

 SSNVS          Social Security Number Verification Service

 T2R            Title II Redesign

 VA             Department of Veterans Affairs




Appendix G
